<html>
<title> - FOREST FIRE PREVENTION</title>
<body><pre>[Senate Hearing 107-328]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-328
 
                         FOREST FIRE PREVENTION
=======================================================================



                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

TO RECEIVE TESTIMONY ON THE INVESTIGATIVE REPORT OF THE THIRTYMILE FIRE 
              AND THE PREVENTION OF FUTURE FIRE FATALITIES

                               __________

                           NOVEMBER 14, 2001











                       Printed for the use of the
               Committee on Energy and Natural Resources



                        U.S. GOVERNMENT PRINTING OFFICE
78-160                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman
DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
BYRON L. DORGAN, North Dakota        CONRAD BURNS, Montana
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARY L. LANDRIEU, Louisiana          DON NICKLES, Oklahoma
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
DIANNE FEINSTEIN, California         CRAIG THOMAS, Wyoming
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           RICHARD C. SHELBY, Alabama

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                         Kira Finkler, Counsel
                Frank Gladics, Professional Staff Member













                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     2
Bosworth, Dale, Chief, Forest Service, accompanied by Jerry 
  Williams, Director, Aviation and Fire Management...............    11
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     1
Cantwell, Hon. Maria, U.S. Senator from Washington...............     5
Craig, Hon. Larry E., U.S. Senator from Idaho....................     4
Gleason, Paul, Professor of Forest Sciences, Colorado State 
  University, Fort Collins, CO...................................    29
Gray, Jody, Yakima, WA...........................................    44
Hastings, Hon. Doc, U.S. Representative from Washington..........     8
Schaenman, Philip, President, TriData Corporation, Arlington, VA.    24
Weaver, Ken, Yakima, WA..........................................    33
Wyden, Hon. Ron, U.S. Senator from Oregon........................     1

                                APPENDIX

Responses to additional questions................................    49











                         FOREST FIRE PREVENTION

                              ----------                              

                      WEDNESDAY, NOVEMBER 14, 2001

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:50 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order.
    Let me apologize to my colleagues. Two places at once 
turned into three places at once, and I want my colleagues to 
know I am sorry for the inconvenience.
    The chairman of the full committee is here, Senator 
Bingaman. We are very pleased that he is here, and I want to 
recognize him before we begin.
    [A prepared statement from Senator Campbell follows:]
          Prepared Statement of Hon. Ben Nighthorse Campbell, 
                       U.S. Senator From Colorado
    Thank you Mr. Chairman for allowing me to testify before this 
Subcommittee today.
    I would also like to recognize and thank Mr. Paul Gleason, Forestry 
Professor at Colorado State University for coming to Washington to 
testify here today.
    We are here to discuss an unfortunate incident, the type with which 
Coloradans are all too familiar. The flames of the Thirtymile Fire 
caused four fatalities, accounting for the nation's second worst 
wildfire disaster. The Storm King Mountain fire west of Glenwood 
Springs, Colorado has the infamous distinction of being our worst 
wildfire tragedy. In that fire, on July 14, 1994, fourteen brave 
firefighters gave their lives to protect the lives of so many others.
    After that incident, I introduced a resolution to honor those brave 
men and women and to highlight the importance of fire safety and 
underscore the need to devise sensible ways to minimize fire damage.
    I understand that there is a debate whether certain forest 
maintenance methods, such as controlled burns, are environmentally 
preferential or are contrary to a natural state.
    Wildfires are common in the West. The arid conditions and 
significant swing in precipitation levels make the region a prime 
target for fires. Yet, with all of our experience, men and women, and 
homes and habitat continue to perish in combating these blazes.
    I submit to this Subcommittee, that any debate concerning forest 
maintenance should recognize that fires in the West will continue. 
Therefore, we should make sure that such maintenance programs focus on 
the human factor and not on other concerns. If a particular forest 
maintenance program can prevent the death of even one firefighter, then 
that is the program we should implement. Some proponents of forests and 
public lands seem to argue that man should be kept out of the 
discussion altogether; that man has no place in a discussion about 
wilderness, for example.
    As an advocate for public lands, I can confidently say that man has 
a place in such debates. Ignoring the human factor ignores the 
fundamental relationship between man and the environment. I raise this 
issue not to point blame, but to highlight that man has a place at the 
environmental table.
    Fire fighting is one of the most dangerous jobs in the world. The 
men and women of our fire departments put their lives on the line every 
day to protect us. We have a duty to enact policies that would protect 
them in kind.
    I look forward to the witnesses' testimony, and in particular, to 
find out what lessons we learned from the Storm King Mountain Fire, and 
most recently, from the Thirtymile Fire.
    Thank you.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    The Chairman. Well, thank you very much, Mr. Chairman. Let 
me congratulate you and Senator Craig on having this hearing. I 
know Senator Cantwell had specifically asked for this hearing 
to occur.
    I was particularly interested in the issues that are going 
to be dealt with here because we have seen this problem of 
inadequate safety precautions in our firefighting efforts for 
many years, and I am sure you are all aware of that. I had the 
unfortunate occasion to travel to New Mexico in 1994 with then-
Secretary of Agriculture, Mike Espy, to attend a memorial 
service for the three Federal firefighters who died in a 
helicopter crash in my State there in the Gila National Forest. 
And I know there have been many other instances of tragic 
losses since then, and the deaths that occurred at the 
Thirtymile Fire in the State of Washington this past July are 
most recent examples, which obviously we are all very sad 
about.
    Let me just say I want to support any effort that you make 
in the subcommittee and that we can make in the full committee 
to keep a close eye on what is done here. As I understand it, 
there is an action plan to improve safety in the fighting of 
fires, and I hope we can have a constant oversight of that as 
we proceed for the next year or 2. I think that would be very 
important.
    But thank you for letting me make a short statement. I am 
not able to stay for the full hearing, but I do appreciate very 
much the fact that you are having it.
    [The prepared statement of Senator Bingaman follows:]
        Prepared Statement of Hon. Jeff Bingaman, U.S. Senator 
                            From New Mexico
    I was deeply saddened when I heard the news last July that four 
firefighters were killed fighting the Thirtymile Fire in the State of 
Washington. I would like to express my deepest sympathy to the family 
members who are here today.
    Many members of this Committee are from Western States where fires, 
and threats of fires, are an ongoing concern. These are bipartisan 
issues that are important in many States. In my own State, we 
experienced the catastrophic results of an out of control fire just 
last year--the Cerro Grande fire. As Chairman, I want to assure 
everyone that one of this Committee's highest priorities is oversight 
of Federal fire policy on public lands.
    After the 2001 fire season, Congress provided the agencies with 
substantial additional funding to ensure that all aspects of the 
National Fire Plan, including firefighting, were adequately provided 
for. I was happy to be a part of that effort.
    In addition, this Committee has held numerous hearings on fire 
policy. At every one of these hearings, the Federal land management 
agencies, including the Forest Service, tell us that firefighter and 
public safety is the number one priority above and beyond everything 
else.
    In light of these assurances, I was troubled to learn that the 
agency's internal investigation of the fire concludes that Forest 
Service personnel made a number of tragic mistakes relating to safety 
considerations. Recently, I was pleased to learn that the Chief 
released an action plan to improve safety on the firelines. However, I 
want to make it clear that we intend to closely monitor the 
implementation of this action plan and hold the agency accountable.
    I think it is appropriate that Senator Cantwell requested this 
hearing so that we can better understand the questions surrounding 
issues of safety. I was happy to accommodate her request for this 
hearing. I look forward to working with her and other Senators to 
improve firefighter safety. We must all work together to ensure that 
this tragedy is not repeated.

    Senator Wyden. I thank my colleague, the chairman of the 
full committee, and again appreciate him coming.
    The purpose of the hearing today in a sentence is to make 
sure that the four lives were not lost in vain at the 
Thirtymile Fire in Washington State. The job of this 
subcommittee is to determine a new direction for the Forest 
Service and the Congress as there is a bipartisan effort to 
work together to prevent future forest fire fatalities. Our 
hearts go out to the families and the friends of those who died 
in the Thirtymile Fire in Washington State this summer, and we 
are particularly anxious to follow up, at Senator Cantwell's 
request, on the proposal and look specifically at this fire and 
look at all possible ways that this committee can pursue to try 
to prevent this kind of tragedy in the future.
    Those of you who have attended recent subcommittee hearings 
know that Senator Craig and I in particular have tried to team 
up on a bipartisan basis to pursue constructive solutions to 
the problems of our forests. We have concerned ourselves with 
the nuts and bolts of forest management, the issues surrounding 
old growth, the Northwest Forest Plan, and the mechanics of 
fighting fires under the National Fire Plan.
    Today, though, with the Thirtymile Fire in Washington 
State, we turn our attention not just to dealing with the 
tragic event, but to a human element of forest policy, the 
safety considerations that are absolutely critical to saving 
lives.
    On a hot July day in a narrow river canyon this year, a 
small fire quickly grew out of control. Four firefighters were 
tragically killed. The Forest Service's own internal 
investigation of the fire has concluded agency personnel made a 
number of significant mistakes, ways in which the Federal 
Government was not a good partner, not a good and effective 
partner of the firefighters in their dangerous work.
    The Forest Service has now released a 31-point action plan 
to improve safety on the fireline. There is a variety of good 
steps in the plan including better training of leadership, 
improved management of the transition from the initial attack 
to the extended attack, and implementation of measures to fight 
fatigue.
    To make sure that those lives were not lost in the Pacific 
Northwest, this subcommittee is going to hold the Forest 
Service accountable on the implementation of their action plan 
to improve safety on the fireline. We appreciate that there has 
been an admission of the agency's mistake and that there has 
been a development of an action plan. Today's hearing in my 
view is the beginning of an effort to assure a timely and 
effective implementation of that plan.
    The subcommittee is going to want to know, for example, how 
the Federal Government is going to keep the public informed as 
to the implementation of the plan. We are going to want to know 
what assurances will be given to assure that everything is done 
in the future to minimize the risk of future fire fatalities.
    We appreciate the witnesses' being here. We can probably 
agree that the Forest Service action plan is a step in the 
right direction, but I am of the view that more may be needed 
to protect firefighters in the future, and we will examine that 
as well.
    I want to recognize my colleague, Senator Craig, but also 
make clear that Senator Cantwell has just been relentless in 
pursuing this issue, making it clear that this was of critical 
importance to her constituents to try to prevent these kinds of 
tragedies in Washington State in the future. And to her credit, 
she has made it clear that she wants the Congress to act so as 
to prevent these tragedies all over this country. After we 
recognize Senator Craig, we are going to recognize Senator 
Cantwell.
    Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Well, Mr. Chairman, thank you very much. I 
am a bit gravelly today, but I must tell you that I will excuse 
your tardiness. The Senator and I are both refugees--refugees 
of the Hart Office Building. So, we are victims of the current 
war we are engaging in. I do not say that with any humor at 
all. The sense of dislocation that has resulted is very 
frustrating and confusing to all of us and our staffs.
    But, Mr. Chairman, let me thank you and Senator Cantwell. 
The hearing that we are holding this afternoon I think is of 
critical importance.
    Let me also recognize Representative Doc Hastings who is 
here. The fire occurred in his congressional district, and I 
know he is concerned about this too.
    Each of us needs to understand what is working and what is 
not working when it comes to the safety of our firefighters. We 
need to ensure that we do everything possible to secure the 
safety of the young men and women who work so hard to protect 
the resource values in our forests.
    I want to begin by expressing my condolences to the parents 
of Jessica Johnson, Karen FitzPatrick, Devin Weaver--Devin's 
father Ken is with us today--as well as Evelyn Craven, and Tom 
Craven's parents for the sacrifice and the pain they have had 
to endure as a result of this accident.
    Additionally, I want to thank Jason Emhoff for his 
sacrifice. I know each of you joins me in wishing Jason a 
speedy and complete recovery.
    While we cannot bring back your loved ones, we can ensure 
that conditions and training and firefighting policies are 
changed to do everything possible to guarantee the safety of 
each and every firefighter who follows.
    Mr. Chairman, I expect the Chief of the Forest Service, who 
is with us today, will help us understand the findings of the 
Thirtymile Fire investigation, as well as what is being done to 
ensure that we have as few future injuries and fatalities as is 
possible.
    I also know that unless we are willing to sacrifice our 
forests to fires, which I believe is unacceptable to all of us, 
that fire suppression work is extremely dangerous and that 
conditions and weather many times conspire to thwart the best 
intentions of all involved.
    Chief, I want you and your staff to know that I am troubled 
by the apparent similarities between the Thirtymile Fire and 
other past events. It suggests to me that your firefighters may 
not be learning from past mistakes or that your training is not 
getting through to the younger firefighters or possibly both. I 
expect you to redouble your efforts and that you will implement 
an effective program to ensure the safety of our firefighters, 
our communities, and our forests.
    I want everyone to know that I am not interested in a 
protracted debate over whether or not forest plans or 
regulations or manual language or the Endangered Species Act 
are to blame for these or other injuries or fatalities. Nor 
should we be getting all worked up about whether or not some 
rules, laws, or policies direct that we do not send 
firefighters into some areas such as research natural areas or 
wilderness.
    I expect the Federal land managers to use every tool at 
their disposal within the direction of our forest plans to 
fight fire in the most aggressive, but safe manner possible. It 
is not acceptable to me to learn that we are not utilizing 
every means possible to suppress these fires in a safe manner.
    The time to fight fires is before they occur, by removing 
fuels from our at-risk lands. Even the fuel suppression crews 
recognize the need, when they responded to the TriData 
Company's surveys. When a fire does occur, it should be 
attacked with all available force before it has an opportunity 
to transition into a high risk, catastrophic situation we all 
worry about.
    Mr. Chairman, I should not have to remind anyone that our 
firefighter safety can be enhanced if we would direct the 
Federal land managers to reduce the fuel loading in our 
forests. We have been debating forest health and now the fire 
management plan for nearly a decade. I expect the Federal land 
managers, including Chief Bosworth, to get on with managing our 
forests. We are long past a point where we can afford to debate 
whether or not we have a forest health program. We are long 
past a time when we should be debating whether or not to remove 
trees through thinning or timber harvest to reduce fire 
intensity. It is time for you, Chief, and the Forest Service to 
reduce the fuel loading, reduce fire intensity, and increase 
the margin of safety for America's best, our firefighters.
    Thank you very much, Mr. Chairman.
    Senator Wyden. Thank you, Senator Craig.
    Senator Cantwell.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I do appreciate 
your bringing this subcommittee together, for Senator Craig 
being here. I also appreciate full committee chairman, Senator 
Bingaman, attending the opening of the hearing.
    On July 10, near Winthrop, Washington, the Thirtymile Fire 
burned out of control and four courageous, young people lost 
their lives. I think it is important to remember that Tom 
Craven, just 30 years old; Karen FitzPatrick, 18; Jessica 
Johnson, 19; and Devin Weaver, 21, were just a few of those 
whose lives have been lost in firefighting.
    Today, Congress is taking the first steps in understanding 
why these tragic deaths occurred and learning and understanding 
how to prevent them in the future. I believe Congress has a 
responsibility to the families of the lost firefighters to 
thoroughly examine the Forest Service's safety performance, to 
make sure the right questions are being asked and answered, and 
to ensure that appropriate actions are being taken to protect 
the lives of firefighters.
    We all recognize the courage and commitment of the men and 
women who fight wildland fires and the important work that the 
Forest Service and all the five Federal firefighting agencies 
do on our behalf. We know that firefighting is a dangerous 
profession.
    Nevertheless, we owe it to the firefighters who lost their 
lives in service to this country and to their communities, and 
we owe it to their families, to vigorously investigate their 
deaths, identify the causes, and learn from the mistakes that 
were made. Only then can we prevent future tragedies from 
happening.
    On September 26, the U.S. Forest Service released its 
investigative report on the Thirtymile Fire, and in this 
report, it identified 14 causal factors and 5 influencing 
factors that contributed to the deaths of Tom Craven, Karen 
FitzPatrick, Jessica Johnson, and Devin Weaver. The report 
identified the following causal factors: lack of escape routes 
and safety zones; inadequate assessment of weather and fuels 
that contributed to the fierceness of the fire; strategy and 
tactics that did not adequately consider the existing 
conditions; failure to maintain clear command and control; 
fatigue; and missed opportunities for management and personnel 
to take control. All 10 standing fire orders and 10 of the 18 
watch-out situations, the Forest Service's most basic 
guidelines, were violated and disregarded.
    Unfortunately, this situation sounds all too familiar. The 
causes of the Thirtymile Fire are nearly identical to the 
causes identified in the Forest Service report on the 
investigation of Colorado's Storm King Mountain fire, which was 
issued 7 years ago. Also at that time, similar problems with 
the Forest Service's training, leadership and management were 
mentioned.
    In the 7 years since the Storm King report, the Forest 
Service and Federal agencies responsible for wildland 
firefighting have initiated several significant interagency 
reviews, conducted numerous studies, and promoted safety as 
their top priority in wildland firefighting. And yet, here we 
are today, 7 years and millions of dollars later, investigating 
another horrible tragedy--one that the Forest Service itself 
says could have been prevented.
    To quote from the Thirtymile report, one crew member, who 
was at the scene of the fire, was asked about the apparent 
apathy towards safety guidelines. This crewmember responded, 
``Everyone knows that these are just guidelines and they can't 
always be followed.'' To me this indicates that there is a huge 
gap between management's stated position on fire orders, that 
``we don't bend them and we don't break them,'' and what really 
happens when we send young men and women out to fight fires. 
The gap between stated safety policies and real world practices 
caused the death of these young firefighters. The question 
before us today is, why are these safety policies more rhetoric 
than reality?
    In the end, the Forest Service's management failed these 
young firefighters. The Forest Service's safety practices and 
procedures failed all of us. Congress should not and must not 
fail these firefighters.
    I am concerned that this problem appears to be a cultural 
or institutional failing in the Forest Service approach to 
safety. Similar leadership and management training failures 
continue to place firefighting personnel in harm's way. In all 
of these reports, the common element is a lack of 
accountability and leadership. We must ask ourselves why we are 
seeing the recurrence of these same causal factors, why the 
lack of progress in bringing about real change, and how many 
more reports we are going to have.
    The 1995 TriData study, which was commissioned after Storm 
King, drew upon nearly 1,000 interviews with wildland 
firefighters and Forest Service managers and formed the basis 
for 86 goals to improve safety. The TriData study also stated 
the absence of accountability, a critical element in overcoming 
a cultural complacency. While the words may not be identical, I 
am struck by the fact that the ideas behind the TriData 
recommendation are similar to the safety action plan the Forest 
Service issued just last month. It appears to me that these 
recommendations are actually being recycled. They are not new 
ideas. They simply have not been implemented.
    In the wake of the Thirtymile Fire, it has become clear 
that the Forest Service needs to make implementation a reality. 
Lives are at stake and things must change.
    To make any meaningful change in the Forest Service 
culture, it is essential to have genuine and meaningful 
accountability in the system. And I should say here that I know 
the new leadership in the Forest Service has just been on the 
job a very short period of time. But there must be more 
accountability in the Forest Service. We will hear from an 
agency today that has promised to reform and failed. The 
current management team will need to take that into 
consideration. History has shown through different 
administrations that suggested action plans and promises have 
come up short, and I am hoping that that will change.
    I want to explore at this hearing on the Thirtymile Fire 
different ways that that might be done. I am going to ask 
questions about increasing the oversight of the Forest Service, 
changing training procedures so that they are on par with 
standards of other public safety organizations, increasing the 
objectivity of the investigators in charge of probing these 
tragic accidents, and implementing a zero tolerance policy for 
safety violation and enforcement within the agency. Our goal is 
clear and we must not fail. It is time for the Forest Service 
to take action to increase firefighter safety.
    I look forward to hearing the testimony of all those who 
are here today, and to Congress continuing its oversight and 
investigation. We must prevent the tragedies at Storm King and 
Thirtymile from ever happening again.
    I thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague.
    Let us now have Congressman Hastings come forward. Doc, we 
very much welcome you and appreciate your coming and always 
appreciate the chance to work with you. Go ahead.

                STATEMENT OF HON. DOC HASTINGS, 
              U.S. REPRESENTATIVE FROM WASHINGTON

    Mr. Hastings. Thank you very much, Senator. I appreciate 
your having this hearing, Senator Craig, and I especially want 
to thank my colleague from Washington, Senator Cantwell, for 
requesting this hearing. I know our staffs have worked together 
on this, and I appreciate that very much. This is an issue of 
great concern to those of us who live in eastern Washington, 
but in fact everybody that has potential for wild fires.
    We in the West are all too familiar with the enormous 
impact of forest fires. While most folks experience the flames, 
smoke, and devastation through their televisions, we experience 
the impact these fires have firsthand on our communities and 
our neighbors. The destruction wrought by forest fires can 
devastate our homes and our environment and, even more 
tragically, can claim the lives of both civilians and 
firefighters.
    On July 10, 2001, we experienced such a tragedy with the 
untimely loss of four U.S. Forest Service firefighters in the 
Cascade Mountains in Washington State in my district. While 
proud and heroic members of the U.S. Forest Service continued 
to fight the flames, known as the Thirtymile Fire, 
unfortunately mothers, fathers, a wife, sisters, brothers, 
children and friends were informed that their loved ones had 
died fighting the blaze. Among those lost was an experienced 
firefighter and a strong, proud husband and a father of two. 
Lost as well was a young woman known for her faith who at one 
point in her life saved her own home from a fire. Lost was a 
youthful athletic woman with a promising future at Central 
Washington University, and lost was a young man known as a 
devoted outdoorsman with a keen interest in electrical 
engineering. Tom Craven, Karen FitzPatrick, Jessica Johnson, 
and Devin Weaver, brave Americans who gave their lives while 
serving our country as Federal firefighters.
    But amid the sadness and great loss, there were some 
encouraging moments. Firefighter Rebecca Welch protected the 
two hikers in her emergency shelter as the flames approached, 
thereby saving their lives as well as her own. Firefighter 
Jason Emhoff, who suffered severe burns, is now successfully 
recuperating. And of course, countless others continued to 
fight the blaze.
    Unfortunately, many of these brave men and women will face 
additional fires in the years to come. We must always be 
mindful of their efforts and their bravery when faced with 
adversity. It is with this effort and dedication in mind that 
we must work to ensure the safety of the U.S. Forest Service 
firefighters.
    I too, like you, have reviewed the Forest Service report on 
the Thirtymile Fire, and I have discussed its contents and the 
findings with the Okanogan and Wenatchee Forest Supervisor, 
Sonny O'Neal, as well as with Chief Dale Bosworth. And like 
most, I believe the report is thorough and that all potential 
and contributing aspects of this tragedy were reviewed.
    But it is out of respect for those who serve day to day 
fighting fires in my district and across the Nation and in 
honor of those that we have lost that we must seek to ensure 
our firefighters are protected by the policies that guide them 
through these very difficult situations. Because far too many 
questions remained unanswered, we are compelled to demand 
answers regarding this event. The safety of our Forest Service 
personnel and the application of findings of this event to 
future fires require that we demand nothing less.
    Regrettably, we have been in this situation before. 7 years 
ago, following the tragic South Canyon fire in Colorado, Forest 
Service officials were asked hard questions about wild fire 
fighting procedures. At that time, Congress received forceful 
assurances that changes would be made in both policies and 
procedures and how those changes would be carried out in the 
field.
    Unfortunately, we are here again today, at least in part, 
because apparently the Forest Service failed to adequately 
follow through on those assurances. Much like South Canyon, 
significant management findings of the Thirtymile Fire suggest 
that a majority, if not all, of the standard firefighting 
orders and watch-out situations were violated. In fact, all 10 
of standard firefighting orders were violated during the course 
of the Thirtymile Fire.
    Why, if so many rules were violated and compromised during 
the South Canyon fire and subsequent remedies were recommended, 
were those rules again violated during the Thirtymile Fire?
    Why, after managers, firefighters, and Forest Service 
personnel received the additional training recommended by the 
South Canyon final report, were all 10 of the standard fire 
orders once again violated?
    Furthermore, why were 10 of the 18 watch-out situations 
violated as well?
    From South Canyon, we learned that fuel loads were high, 
that the fire's behavior was unpredictable, that shelter 
deployments were not engaged properly, and that leadership and 
management skills were lacking. Sadly these same situations 
apparently occurred during the Thirtymile Fire.
    Our responsibility now is to actively work to ensure these 
issues are addressed once and for all. We must question why 
these issues were not remedied then so that the same exact 
scenario would not repeat itself 7 years later. We need very 
specific answers to these concerns. The families of the 
deceased firefighters are entitled to these answers and our 
remaining firefighters need them for their survival.
    I also remained concerned that a mop-up crew, which was the 
case at the Thirtymile Fire, was engulfed by fire. They had no 
knowledge it would explode so dramatically. Clearly, none of 
the firefighters knew they were in such imminent danger until 
the flames were upon them. Where were the communication 
breakdowns? Why would a mop-up crew, when fatigued and 
operating with little experience, suddenly be facing such 
extreme conditions?
    Furthermore, it is clear from both the Thirtymile report 
and the South Canyon report that the management and approach to 
these fires were not altered when there was a clear, obvious 
observed threat.
    Some have suggested that in contrast to the South Canyon 
fire, those working the Thirtymile Fire on July 10 were not at 
all aware of how dangerous the situation that they were facing 
was. We must recognize, however, that in some cases whatever 
preparedness and training available to firefighters, some fires 
are just so bad that no amount of preparation can prevent major 
disasters, and sadly that sometimes results in the loss of 
life.
    But that said, should a full-scale breakdown in a 
communication, training, and management occur, the responsible 
officials must be held accountable. Let me just repeat that. 
When these factors break down, the responsible officials must 
be held accountable.
    I hope that today, in addition to discussing these events 
surrounding Thirtymile, we will have the opportunity to discuss 
how the Forest Service intends to address the issue of 
accountability. If the post-South Canyon policy modifications 
and recommendations were not implemented at Thirtymile, then we 
need to know where the accountability lies between those two.
    Wherever these issues take us, accountability, 
preparedness, leadership, training, and resolution, we must 
never lose sight of the reason why we formulate and implement 
these firefighting policies. The brave men and women who fight 
our forest fires, protecting our communities from disaster and 
damage, deserve our unqualified respect and admiration, as well 
as the comfort of knowing that their Government will make their 
health and safety the number one priority before sending them 
into these dangerous situations.
    Again, I would like to thank the Senate and this 
subcommittee for inviting to testify today and I look forward 
to working with you as to any policies that may be developed 
that requires our involvement. So, I look forward to working 
with you, and once again, I want to thank the committee and my 
colleague from Washington for having this hearing.
    Senator Wyden. Doc, thank you for an excellent 
presentation. I do not have any questions, but I want to 
recognize my colleagues. I know that Senator Craig had a 
request from our colleague from Colorado, Senator Campbell, and 
I want to recognize him.
    Senator Craig. Thank you, Mr. Chairman.
    Doc, I have no questions of you, but I do appreciate that 
testimony and your sensitivity to this issue.
    Senator Wyden. Senator Cantwell.
    Senator Cantwell. Thank you. I just had one question. I 
know, Doc, you hit on the themes of accountability and 
leadership and training. Has your office thought of any 
specifics along those lines on the issue of accountability?
    Mr. Hastings. No, we have not specifically. We are like, I 
think, a lot of people that have looked at the South Canyon 
report and this report and compared the two, and wondered why 
something has not been done.
    I guess that I would characterize where we potentially need 
to go on this is that if something like this tragically 
happens--and I hope it does not happen again--there simply has 
to be some sort of a trail where there is a breakdown. And if 
there is a breakdown, there has to be accountability. Now, 
lacking that, if all of the rules by which people are being 
guided when they fight a fire are not being followed, as you 
suggested, that they are just guidelines, then maybe there has 
to be a new look within the agency as to what those rules are 
with some sort of hammer to make sure that they are carried 
out.
    But beyond that, I have not gone into the specifics. I hope 
that maybe as a result of this hearing and further action, we 
can resolve that, however.
    Senator Cantwell. Well, we certainly appreciate your being 
here today and all your work on behalf of the 4th district of 
Washington. We know that you are very concerned about this, and 
your future efforts on this are appreciated.
    Mr. Hastings. Good. Thank you very much.
    Senator Wyden. Doc, thank you for an excellent 
presentation. We will excuse you at this time.
    Mr. Hastings. Thank you.
    Senator Wyden. Okay. Our next panel: the Chief, Dale 
Bosworth, accompanied by Jerry Williams, Director, Aviation and 
Fire Management of the Forest Service.
    Gentlemen, we are going to make your prepared remarks a 
part of the hearing record in their entirety. I know that there 
is always a sort of chromosomal compulsion to just read every 
word that is on paper. We are going to make that a part of the 
record. If you could perhaps, Dale, highlight your principal 
concerns and Mr. Williams as well, that would be great.

STATEMENT OF DALE BOSWORTH, CHIEF, FOREST SERVICE, ACCOMPANIED 
   BY JERRY WILLIAMS, DIRECTOR, AVIATION AND FIRE MANAGEMENT

    Mr. Bosworth. Thank you very much. Mr. Chairman and Senator 
Cantwell and Senator Craig, while I appreciate the opportunity 
to be here today, I must say that I regret that we are here 
because of the Thirtymile Fire.
    As you said, I have with me Jerry Williams. Jerry is the 
Director of the Fire and Aviation Management program, and he is 
going to be the person that is, in part, or largely responsible 
for implementing a lot of actions that have come out of the 
investigation report.
    I would just like to say a couple of things about a sort of 
personal situation. Jerry and I have been in our jobs now both 
for about 6 months. I went on my first fire when I was 17 years 
old, and for the following 20 years, I spent quite a bit of 
time on fires. It has been about 40 years now that one way or 
the other I have been involved in fires.
    Jerry spent his whole career in the fire business. He was a 
smokejumper. He was a fire management officer, and now he is 
the Director of our Fire and Aviation Management program.
    Both Jerry and I have sons who are in the same business. It 
is really, really important to us that we deal with safety in 
firefighting. It is important to Jerry and it is important to 
me both, not just because we have sons that are in this 
business, but that adds to it and that adds to the awareness, 
but also because we care a lot about the firefighting family, 
the Forest Service family, and as a Government organization, we 
can do better than we have been doing.
    I deeply regret the deaths that occurred on the Thirtymile 
Fire, and I know that all Forest Service people do. The four 
brave firefighters that lost their lives, as well as the 
survivors, I believe truly are heroes. I have a huge respect 
for them and I have a huge respect for all firefighters that 
face those dangers every day trying to protect our resources 
and our communities.
    I also know that there is a perception that we are blaming 
the victims, and I want to say up front, before I go any 
further, that I do not believe that the victims are to blame. I 
am confident in the overall conclusions that were reached in 
the report. The report details a number of conclusions by the 
investigation team. The members of the investigation team I 
believe were highly skilled and they represent a whole lot of 
years of experience. The investigation identified a number of 
causal factors and those have been discussed already. They have 
been laid out a bit already.
    But I just want to repeat again I guess that the fire again 
started from a campfire. It started about 30 miles from 
Winthrop, Washington. We had initial attack crews on the fire. 
They were replaced by Entiat Hotshot crews, and then a second 
crew arrived on July 10, and that crew was subsequently 
entrapped. Fire shelters were deployed and four people lost 
their lives: Tom Craven, Karen FitzPatrick, Jessica Johnson, 
and Devin Weaver.
    The people that were on this fire I believe were dedicated 
people. I believe that when the people went to this fire, they 
intended to do the right things, but they ended up being 
deceived by the fire, and the situation changed on them pretty 
quickly.
    The real lessons that we have to learn, though, I think are 
the lessons about things that were not done that should have 
been done. That is where there is an awful lot of opportunities 
to try to prevent future fatalities. There were accepted 
firefighting safety procedures that were not followed. The 
fatalities and several injuries all occurred during or shortly 
after the deployment of the fire shelters. But the mistakes 
that were made were made before the entrapment. Those were the 
major mistakes, before the entrapment and eventual deployment.
    The report states the entrapment of the firefighters 
occurred because of a failure to recognize a situation that was 
rapidly deteriorating and because the placement of firefighters 
were in a vulnerable position. There was a lack of 
communication about critical information. Leadership had 
ineffective control and command of operations, and probably 
most critically, is there was a failure to adhere to safety 
procedures and the 10 standard firefighting orders and the 18 
situations that shout watch out.
    Strategies and decisions were made on the fire from the 
initial attack to deployment did not appropriately reflect the 
extreme fire danger that existed at the time. It did not 
recognize the fuel situation in the valley bottom, and lack of 
adequate safety zones influenced the final outcome.
    Transition fires are our most difficult fires. The 
Thirtymile Fire was in transition at the time of entrapment. 
When I talk about transition, I am referring to the stage that 
a fire is escaping the initial attack capability and is growing 
to become a large fire, a large project. And those are the 
times when we have the greatest danger and that we have to put 
a lot of thought into what we can do to minimize the risk to 
firefighters during that time.
    There was some confusion about why some of the firefighters 
ended up deploying shelters in different locations. On October 
3, I asked the Accident Review Board to conduct a review of the 
investigation to make sure of what the details were that could 
be pulled out of that. The board identified two possible 
scenarios, either one of which may describe why some stayed on 
the rocks and some were in the road. One possibility is they 
never heard the orders. The other possibility is that they 
believed that they were following the orders because they were 
all fairly close together. We will probably never know with any 
kind of precision or certainty really what took place at that 
time. But we do know that communications were not adequate, and 
we do know that they should not have been put in this situation 
of entrapment in the first place.
    On October 19, we released an action plan to address the 
changes that were recommended by the report. We are taking 
actions on situational awareness, assessment and transition, 
fatigue management, incident operations, fire management 
leadership, personal protective equipment, and safety 
management and accountability. I have also asked the regional 
forester in the Pacific Northwest region to initiate an 
administrative investigation to consider performance and 
accountability issues related to what took place.
    So, again I deeply regret what took place on the Thirtymile 
Fire. Again, I want to tell you that the whole Forest Service 
grieves for the families who lost loved ones in this fire. And 
I want to reaffirm to you that we have a commitment to do our 
very, very best to improve firefighter safety and to reduce the 
potential for risks to our people.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Bosworth follows:]
      Prepared Statement of Dale Bosworth, Chief, Forest Service, 
                       Department of Agriculture
    Mr. Chairman and Subcommittee Members:
    Good afternoon. While I appreciate the opportunity to testify 
today, I regret that we are here because of the Thirtymile Fire 
accident. Accompanying me today is Jerry Williams, Director, Fire and 
Aviation Management, who will be responsible for many of the actions 
arising out of our investigation report's recommendations.
    I deeply regret the deaths that occurred on the Thirtymile Fire; my 
grief and the grief of the entire Forest Service family are deep and 
genuine. The Thirtymile Fire was a tragic event. The four brave 
firefighters, who lost their lives, as well as the survivors, truly are 
heroes. I have immeasurable respect for them and for all of our 
firefighters who face danger every day protecting our resources and us.
    I am confident in the overall conclusions reached in the report, 
which details the collective conclusions reached by the investigation 
team. The members of the investigation team are highly skilled, 
representing many years of experience. The investigation identified a 
number of interconnected likely causal factors that we must address. 
Understanding the likely causal factors and taking all possible action 
to prevent similar happenings in the future is a critical concern for 
not only the Forest Service, but also for other Federal, State, and 
local government fire suppression organizations who must learn from 
these unfortunate and tragic events.
                                overview
    The fire, caused by an abandoned picnic cooking fire, was located 
30 miles south of Winthrop, Washington, along the Chewuch River. 
Firefighters were assigned to initial attack; the Entiat Hotshots 
relieved the initial attack crew and continued the initial attack 
effort. On July 10, a second crew arrived that subsequently was 
entrapped. Fire shelters were deployed, but four people lost their 
lives: Tom Craven, Karen FitzPatrick, Jessica Johnson, and Devin 
Weaver.
    Before I discuss the findings of the report, let me tell you how we 
respond to incidents when there is a serious accident, such as 
entrapment and deployment. Within hours, we designate a team of 
technical experts to meet on-site to make an initial assessment of the 
facts. Within 24 hours of any fatalities, an initial report is filed. 
The work continues and a more detailed report is written, 72 hours 
after the investigation team meets. We do this because it is critical 
for us to find out major issues and causal factors so that we can 
quickly notify other firefighters about any preliminary factual 
findings, which could affect their procedures or operations.
    For the Thirtymile Fire, we chartered an investigation team that 
held its first meeting on July 11, the day after the tragedy. On July 
14, the team issued its report that stated the basic facts about the 
fire. Although there were no immediate remedial measures called for, 
many of our fire organizations did stop to review procedures and 
reinforce basic safety messages. A conference call was held with our 
Regional Foresters and Station Directors to discuss the fire. The 
investigation report was completed on September 26. Because there were 
continuing questions concerning why some of the victims and survivors 
remained on the rock scree above the road, I asked the Review Board to 
reexamine the factual report and witness statements relating to this 
question.
                     summary of the report findings
    The people on this fire were dedicated people. They intended to do 
the right things, but they were deceived by the fire and the situation 
changed on them quickly. The lessons to be learned as a result of the 
fatalities on the Thirtymile Fire are mostly about what was not done 
that should have been done. The report concludes that there were many 
opportunities to prevent these fatalities. Accepted firefighting safety 
procedures were not followed and, as a result, four firefighters lost 
their lives. The fatalities and several injuries all occurred during, 
or shortly after, deployment of fire shelters, but the mistakes that 
led to this tragedy were made earlier before the entrapment and 
eventual deployment.
    The report states that the entrapment of the firefighters occurred 
because of a failure to recognize a rapidly deteriorating fire 
situation, the placement of firefighters in a vulnerable position, the 
lack of communication about critical information, leadership's 
ineffective control and command of operations, and, most critically, 
the failure to adhere to safety procedures and Standard Firefighting 
Orders and all firefighters are taught the ``Ten Standard Orders'' and 
``Eighteen Situations that Shout Watch Out.'' The entrapment of two 
civilians occurred because of a delayed closure of a potentially 
hazardous area and failure to successfully evacuate the valley upriver 
from the fire.
    Strategies and decisions made on the fire from initial attack to 
deployment did not appropriately reflect the extreme fire conditions 
that existed, nor did those decisions appropriately consider the 
diversity and complexity of fuel types in the valley bottom. Similarly, 
features of the valley bottom and the lack of adequate safety zones 
influenced the final outcome.
    Transition fires are our most difficult fires. The Thirtymile Fire 
was in transition at the time of entrapment and fatalities. Transition 
refers to a stage of a fire when it exceeds the capability of the 
initial attack forces to suppress the fire. Transition is usually 
characterized by rapid growth, spotting across control features and 
increased intensity. If firefighters are fatigued and the fire makes a 
transition to a larger fire, the changed fire conditions may not be 
recognized and good, quick decisions may not be made. On the Thirtymile 
Fire, our firefighters exceeded our work/rest guidelines.
    There was some confusion about why or how the firefighters ended up 
deploying shelters in different locations. As I stated, on October 3, I 
asked the Accident Review Board to conduct a review of the 
investigation to see what details could be discerned about why some of 
the victims remained on the rocks. The Board identified two possible 
scenarios, either of which may describe why the some firefighters 
appeared to have chosen not to go the road. One possibility is that 
those firefighters did not hear the incident commander's directive to 
come to the road. Another possibility is that the five firefighters had 
heard the directive to come to the road, but their interpretation of 
the directive was to be ``close'' to the road and they believed they 
were close to the road. Probably we will never know, with certainty, 
precisely what was said, to whom, and at what time. What we do know is 
that communications were not clear to all the crew members.
                             future actions
    On October 19, I released an action plan to address the changes 
recommended by the report. We are taking actions on situational 
awareness, assessment, and transition, fatigue, incident operations, 
fire management leadership, personal protective equipment, and safety 
management and accountability. I have directed Regional Forester Harv 
Forsgren to initiate an administrative investigation to consider 
performance and accountability issues related to the actions taken to 
suppress the Thirtymile Fire. I would be happy to keep the Committee 
apprised of our progress on these actions, especially those related to 
accountability.
    As I said earlier, I deeply regret the deaths that occurred on the 
30-Mile Fire; my grief and the grief of the entire Forest Service 
family are deep and genuine. I reaffirm to you our commitment to do our 
level best to improve firefighter safety and processes to reduce risks 
we owe it to Tom Craven, Karen FitzPatrick, Jessica Johnson, Devin 
Weaver, their families and the survivors and we owe it to the 
firefighters of the future. I will now answer any questions you may 
have.

    Senator Wyden. Thank you, Chief. Let us go now to Mr. 
Williams.
    Mr. Williams. Senator, I do not have any prepared comments. 
I am here to answer any questions you may have.
    Senator Wyden. All right.
    Let me just ask a couple of questions. Then, Chief, I am 
going to turn it over to Senator Cantwell, who really in my 
view deserves great credit for constantly pushing to have this 
committee work for changes. I want to let her know again that I 
very much appreciate her leadership.
    Chief, I know how dedicated you are and how sincere you are 
in your work and your commitment to professionalism in this 
area. But I will tell you that when I read the first couple of 
sentences under Future Actions on page 3 of your testimony--
``We are taking actions on situational awareness, assessment, 
and transition''--that basically sounds like business as usual. 
Maybe you could tell me in English what that paragraph really 
means in terms of shaking our policies up here so that we do 
not have another subcommittee hearing requested by a member of 
this Senate to look at another tragedy.
    Senator Cantwell has pointed out with great specificity the 
history of what has gone on in this area, and Congressman 
Hastings has as well. This has gone on for years and years. And 
now you have come and said you are going to take actions on 
situational awareness, assessment, and transition, and a 
variety of other things. I would like you to start by telling 
me what are going to be the significant and tangible steps that 
the Service takes so that this subcommittee is not back in 
another year or 2 holding a hearing on yet another tragedy 
referring to yet another report from the Forest Service saying 
that things went wrong.
    Mr. Bosworth. Well, the first thing is the action plan that 
the board of review came up with. I am going to ask Jerry here 
in a minute to be a little more specific on the action plan. 
There are a number of items in the action plan.
    I am briefly talking about things like situational 
awareness. We have got to do a better job of training people, 
making sure they are not fatigued, making sure that people are 
following the fatigue guidelines, making sure that when they 
are out there, they understand the situation that is going on 
around them. If their eyes are looking down right in front of 
them and they are not paying attention to the situation around 
them, either because they do not have the training or because 
of fatigue, then we have got them in a situation that is 
unacceptable. So, we need to do some work on that with all of 
our firefighters.
    We need to do a better job, when I talk about fatigue, of 
managing the fatigue guidelines. We are learning by working 
with the Department of Defense that after a certain number of 
hours without sleep and working hard, that judgment is 
diminished a significant amount. We cannot afford to have 
people out there in a dangerous situation with 30 hours of work 
with no sleep. We need to manage that better.
    We have accountability issues that we have to deal with, 
and we need to start doing accountability before we have a 
fatality. We need to be dealing with accountability every day 
on every fire on every situation so that when we find people 
that are not following the 10 standard firefighting orders or 
they are not following the other guidelines and standards that 
we have, that we take action at that time and not wait until 
people are in the position where they are entrapped in a fire.
    So, those are a few of the things, and I can have Jerry go 
through more specifically the action plan, if you would like to 
hear some of those things.
    Senator Wyden. Yes, I would like to hear as much as you all 
want to talk about that is specific about what changes are 
going to be made because when I read that paragraph under 
future actions and am told about incident operations, 
situational awareness, assessment, transition, fire management, 
leadership, that is just boiler plate that could have been 
taken out of 50 hearings that have been held on this issue in 
the past. What we are going to be doing--and thank goodness, 
Senator Cantwell is going to keep the heat on on this issue--is 
we are going to stay with it until there are real and 
significant changes being made.
    So, Mr. Williams, why do you not take a crack at that.
    Chief, what I am going to do at the end of Mr. Williams' 
answer is make a request to you, and I am going to hold the 
hearing record open for 2 weeks. I would like you to furnish 
specifically the concrete steps that will be taken to describe 
what is going on in that first paragraph under Future Actions, 
because I think we have got to have the specifics. Is there any 
problem getting me that within 2 weeks?
    Mr. Bosworth. No. We could give you a copy of the action 
plan and a copy of the subsequent work that has been done on 
that.
    [The following was received for the record:]

                    U.S. Department of Agriculture,
                                            Forest Service,
                                  Washington, DC, January 11, 2002.

Subject: Implementation of Thirtymile Fire Accident Prevention Plan 
Action Items

To: Regional Foresters, Station Directors, Area Director, IITF 
Director, and WO Staff

    Enclosed is the Thirtymile Accident Prevention Plan and the 
supporting documents. Integration of these Action Items into the 
Directives System, training curricula, and standard practices will take 
time. However, in order to ensure wildland firefighter safety, it is 
imperative that we take certain actions prior to the next fire season. 
Please refer to the text of the Accident Prevention Plan for 
description of each action item below.
    This letter addresses implementation of items A-1, A-3b, A-4, A-8a, 
A-12, A-14, A-15, A-22, A-27, and A-29.
Action Plan Items A-1, A-4 & A-8a
    A draft Transition Fire Guide is enclosed. This guide will be 
shared with all Type 3, 4, & 5 Incident Commanders. Review of this 
guide should be a part of your annual refresher training:
    Local agency administrators are required to convey their 
expectations on incident management to their Type 3, 4, & 5 Incident 
Commanders. Those expectations should include as a minimum:

          1. Provide for the safety and welfare of all personnel and 
        the public.
          2. Develop and implement viable strategies and tactics for 
        the incident.
          3. Monitor effectiveness of the planned strategy and tactics.
          4. Disengage suppression activities immediately if strategies 
        and tactics cannot be implemented safely.
          5. Maintain command and control of the incident.
          6. Use local rules and specific criteria to determine when a 
        fire has moved beyond initial attack.
Action Plan Item A-3b
          a. every fire line supervisor will be issued a ``pocket 
        card'' for the fuel types on their home unit. All fire line 
        supervisors will be issued a pocket card before deployment on 
        an assignment by the receiving unit.
          b. Each unit will post their ``pocket card'' on the Pocket 
        Card web site at www.fire.blm.gov/nfdrs.
Action Plan Item A-12-a, A-12-b
    The National Mobilization Guide will include direction to dispatch 
centers that will ensure all resources know the name of the assigned 
Incident Commander and announce all changes in incident command. 
Geographic Area Mobilization Guides, Zone Mobilization Guides and Local 
Mobilization Guides should include this direction as they are revised 
for the 2002 fire season.
Action Plan Item A-14
    A complexity analysis will be prepared on every fire at the time of 
initial attack as a part of the size up. This analysis can be in the 
form of a checklist similar to the enclosed or developed to meet local 
conditions.
Action Plan Item A-15
    Every fire that has been typed as a Type 3, Type 2 or Type 1 Fire 
will have a dedicated Incident Commander. Collateral duties will not be 
acceptable. Unified command, where appropriate, does not violate this 
requirement.
Action Plan Item A-22
    The Chief, Regional Foresters, Forest Supervisors, and District 
Rangers will personally communicate their expectation of leadership in 
fire management. This will be completed prior to fire season and in 
conjunction with National Leadership Team meetings and annual fire 
schools.
Action Plan Item A-27
    Every fire line supervisor will be issued an Incident Response 
Pocket Guide (PMS#461). Page 1 of the guide contains the National 
Wildlife Coordinator Group endorsed risk management process.
Action Plan Item A-29
    Every fire line qualified individual will receive training on 
entrapment recognition and deployment protocols. This training should 
be conducted in conjunction with refresher training and/or annual fire 
schools. The principles outlined in the entrapment avoidance enclosure 
will be incorporated into next iteration of wildland fire shelter 
training.
    The National Safety Specialist, prior to the 2002 western fire 
season, will issue guidelines for crew actions in the event of 
entrapment and in preparation for deployment. These guidelines will 
include specific actions necessary for entrapment avoidance, safety 
zone characteristics and selection, crew deployment training and 
emergency deployment supervision.
    Each Unit shall ensure that, upon completion, the above items are 
documented and reported to the Regional Fire Safety Specialist.
    The items above, as well as the other items in the action plan, 
should be accomplished as soon as possible. The Fire and Aviation staff 
unit will keep you informed as actions are completed and the Regions 
make progress.
    If you have any questions or require further clarification, contact 
Marc Rounsaville at (404) 347-3464 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3459465b415a4755425d5858517452471a5251501a41471919">[email&#160;protected]</a>

                                          Dale N. Bosworth,
                                                             Chief.

    Senator Wyden. Mr. Williams.
    Mr. Williams. One of the common denominators I think with 
this fire and some of the earlier tragic fires that you have 
referred to is this whole business of transition management. 
Again, this is the kind of fire that is moving beyond initial 
attack. It is a fire that at some point we thought we 
controlled and no longer control, and it is on its way to a 
large, dangerous fire.
    One of the ironies in the wildland fire community is that 
we have strategies in place to deal with initial attack fires. 
You see that in our budgets, in the NFMAS, and in our most 
efficient staffing levels. We also have strategies in place to 
deal with large fires, and that is what incident management 
teams are all about.
    Senator Wyden. So, is something going to change in this 
area known as transition management that is not being done 
today?
    Mr. Williams. Yes, sir.
    Senator Wyden. What would that be?
    Mr. Williams. We are putting together a group right now 
that is developing fire danger thresholds for units across the 
country, and we are going to use those fire danger thresholds 
to guide judgment in dealing with transition fires. Number 
one----
    Senator Wyden. That I think human beings can understand. 
So, as you face the question of these transition policies, you 
are going to set in place an early warning system, so to speak, 
so we will pick it up earlier. Is that right?
    Mr. Williams. That is correct. There is going to be not 
only an early warning system, but we will also introduce 
operational protocols to do something different, that we are 
modifying tactics and strategies as the fire is changing.
    Senator Wyden. Well, that is the kind of thing we would 
like to know within 2 weeks, Chief, what those operation 
protocols would be in addition to the early warning system.
    The only other question I had for you, Chief, is I think 
that this issue is so important that we are going to need 
regular briefings from the Service, not just the paper but 
regular briefings, and Senator Craig has indicated that he 
agrees with this request, as well as Senator Cantwell. Can we 
agree, the subcommittee and you, that we will get briefed on 
how the implementation of these changes are being made in a 
verbal briefing every 60 days until we have got these changes 
in place?
    Mr. Bosworth. We would be very happy to do that. We will 
commit to doing that.
    Senator Wyden. Good.
    At this point, I am going to turn it over to Senator 
Cantwell and again thank her for making sure that this is 
brought to our attention. Senator Cantwell, thank you for doing 
this.
    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for the committee's ongoing commitment and oversight of this 
issue.
    Mr. Bosworth, if I could ask you a few questions about the 
similarities between the Thirtymile Fire and the Storm King 
Fire, and if we could put up the first chart.
    [Chart.]
    Senator Cantwell [presiding]. You can see from this chart 
that there are several factors here that were cited as failures 
in the Storm King Fire that happened in 1994, and were 
specified in the report on the incident: command/control 
failures; lack of management intervention; management did not 
adapt to changing conditions; management ignored watch-out 
situations; environmental factors ignored. Those are the same 
management failures, if you will, that are cited here at the 
Thirtymile Fire. At least that is what your investigative 
report has come up with.
    So, my question is, do you believe that we did not learn 
the lesson from Storm King, as it relates to the fact that 
there have been repeated failures in these key areas, or at 
least in certain fire management situations? Don't you think 
that these failures are the things that we know can go wrong 
and that they should have been at the top of the list of things 
to watch out for?
    Mr. Bosworth. I would agree certainly that these are things 
that should be at the top of the list. I would agree that there 
is additional accountability that needs to be included in what 
we do.
    But I would also say that it is hard to know how successful 
we were after Storm King. We had two or three significantly 
difficult fire seasons where we do not know how many people our 
actions might have saved after Storm King from the things that 
we learned. Now, obviously, we did not learn them well enough 
with what took place on Thirtymile. One of the things about 
implementing the safety plan that sometimes gets difficult is 
you only know when you are not successful. It is hard to tell 
when you are because you do not know if our actions are the 
reason or not the reason.
    But I do know that there has been a high degree of 
attention after Storm King to a number of these items, but you 
cannot slip up at all. When you have a bad situation, you 
cannot slip up at all.
    Senator Cantwell. So, I want to make sure I understand 
because I think part of this issue, at least for me, is 
figuring out where the Forest Service is in terms of safety and 
understanding the problem. You have to understand the problem 
first to correct it. I look at this chart and it seems to me 
that there is a gross negligence in understanding these issues.
    Regarding your comment about the fires that have happened 
in which people may have acted in a proper way: I would assume 
that you would keep some sort of data and information on fires 
that may have happened in between 1994 and 2001, and how well 
the management teams performed in implementing the changes in 
safety practices that have been recommended.
    Mr. Bosworth. Yes. We do keep good track of the number of 
fires that we have. Jerry, do you want to add to that?
    Mr. Williams. I think in this business, because it is a 
high risk/high consequence business, we tend to focus problems 
or their solutions in one of three categories. Do we have 
adequate policies in place to provide for the safety of our 
firefighters? Are the procedures put in place to provide for 
the firefighters' safety? And finally, are performance 
expectations known and observed for all of our people at the 
crew level, all the way up to the management level?
    Senator Cantwell. Well, how do you measure that?
    Mr. Williams. What I am indicating is that I believe the 
policies and the procedures are largely in place. The one place 
where we are soft is on these transition fires, and we are 
committed to fixing that. This in many respects in my mind is a 
performance issue. Did managers and supervisors intervene when 
they should have intervened?
    Senator Cantwell. Well, if we could go to the next chart.
    [Chart.]
    Senator Cantwell. You are saying that you think that the 
procedures or the policies are in place, but I look at the 
recommendations. The TriData study, after the Storm King Fire, 
basically said, ``okay, let us do an analysis of why we are in 
this situation. What are the safety things that need to be 
improved?'' And you came up with a list. I applaud the Forest 
Service for having that done, but then I look at the 
recommendations that you are making from the Thirtymile Fire. 
They are the same recommendations: to develop behavioral based 
safety programs; improve training for individuals in leadership 
positions; gather better information on fire dangers; and 
improve firefighter preparedness and training. They are the 
same recommendations. We are just making them several years 
later. So, either we are not implementing them and we do not 
have a way to measure the implementation--except in the most 
extreme cases, in which the loss of life--or they are 
implemented and not working.
    Mr. Williams. I believe a lot of recommendations have been 
implemented in terms of policy and procedure. Now, whether or 
not that is being adhered to is another issue and that falls 
into this whole business of accountability. I believe that is a 
significant factor for us.
    Senator Cantwell. Well, does it do any of us any good if 
they are not being adhered to?
    Mr. Williams. No.
    Senator Cantwell. If we have them on the books, but nobody 
is adhering to them?
    Mr. Williams. No, not at all. But I would also offer that 
this agency deals with about 10,000 fires every year. We field 
a fire force of about 7,000 firefighters. The policies and the 
procedures, the 10 orders, LCES, the 18 watch-outs in many, 
many cases have saved lives and averted this kind of tragedy.
    Senator Cantwell. So, are you saying that this is a 
percentage issue?
    Mr. Williams. No. I am saying that any loss of life is 
unacceptable. I am saying that in my opinion we have a 
performance issue here. It falls into this whole area of 
accountability. Chief Bosworth is committed to dealing with the 
accountability issue not so much after the fact as we are 
having to do here, but introducing procedures where we deal 
with accountability before this happens. That might be 
something as simple as asking a crew where is your escape 
route, and if they do not know, they are off the line. Or 
asking them what is today's weather forecast, and if they do 
not know one of those 10 standard orders, they are off the 
line.
    Senator Cantwell. Well, let me ask you then about the issue 
of training. Do you think the current level of training that 
the firefighters receive is adequate for personnel to know and 
understand the safety regulations that you are talking about?
    Mr. Williams. I think it is extremely difficult for a 
first-year firefighter. My son is 21 years old. He is on his 
second year in a hotshot crew. These young people, at this 
point especially, need all the leadership and all the 
management oversight that we can bring to bear. We do not ask 
our firefighters to memorize the 10 standard orders, but we do 
insist that the supervisors and the management oversight people 
hold those 10 orders firm. When they do not, we know that 
trouble is in front of us.
    Senator Cantwell. In this instance, some of these young 
firefighters had--what was it--32 hours of classroom training? 
They had just been firefighters for a few weeks and were put in 
this situation. So, are you recommending that we change the 
training program?
    Mr. Williams. What I am saying is that the training that 
these folks receive, the 32 hours of classroom training, plus 8 
hours of field training, is not adequate for the kind of fire 
that confronted them. Now, I do not know that we have got any 
training that is adequate for the kind of fire that confronted 
those people.
    What I am suggesting, though, is that our training does not 
stop at 32 hours. The training that we do is on-the-job 
training. We have performance based training regimens where 
task books and so forth are used to elevate the training and 
background and knowledge of the people that are put into these 
situations.
    Senator Cantwell. Mr. Bosworth, how do you believe that we 
get to a zero tolerance policy within the Forest Service as it 
relates to safety violations within the work force?
    Mr. Bosworth. Well, that is a good question and I am not 
sure that I have a direct answer for how we get there except 
that we need to get there. I think, first, it has to do not 
just with fire but with our whole Forest Service safety program 
and are we giving the proper attention to safety at the top of 
the organization, at the top of the regional organization in 
the forest and the district, and are we following up then with 
some of the kinds of things that Jerry was talking about that 
when somebody does not do that, does not follow the rules, does 
not follow the safety direction, that they are out. They are 
off the line. They may be given some time off. They may be 
removed from service if it occurs, and do that before we have 
serious accidents.
    And I believed this before the Thirtymile Fire, shortly 
after I came into this job. I believe that we need to take a 
hard look at our entire Forest Service safety program not just 
the fire part, although the fire part of it just brings it even 
more after this year.
    I would like to also add that there are other fatalities 
that just are not acceptable. We lost four other firefighters 
on Forest Service fires this summer, three in a helicopter 
crash, one with a snag that fell. Those were just on Forest 
Service fires. There were another eight people that died in 
wildland firefighting that were either State or volunteer 
firefighters in the other agencies.
    Senator Cantwell. Who is accountable for the safety 
violations that occurred in the Thirtymile Fire? Who is 
accountable?
    Mr. Bosworth. Well, it works its way up. Ultimately I am.
    Senator Cantwell. And who else along the way?
    Mr. Bosworth. Along the way, the regional forester who 
works for me who has responsibility for the national forest in 
Oregon and Washington is accountable, the forest supervisor of 
the Wenatchee and Okanogan National Forests, the district 
ranger on the ranger district. There are also other people. 
Then it gets down to the incident commander that was in charge 
of that specific fire, the fire management officer on the 
ranger district and the assistant fire management officer on 
the ranger district, as well as the forest fire management 
officer. Everybody has a hand in this.
    Senator Cantwell. And what actions were taken to hold those 
individuals accountable for the failures and loss of life in 
this incident?
    Mr. Bosworth. Right now we have got an administrative 
review we have contracted out, and I have asked the region to 
do an administrative review. So, we go through due process in 
taking any kind of administrative action or disciplinary action 
on people that were accountable, the people that we need to 
hold accountable for this.
    Senator Cantwell. Mr. Bosworth, has the Forest Service 
considered looking at the ways other enforcement organizations 
or safety organizations hold people accountable for safety 
violations?
    I would just add that Doc and I represent a common area in 
the 4th district of Washington, and I guarantee you if the 
workers at Hanford committed the same level of health and 
safety violations, we all would not be here. But there has to 
be a culture that implements safety standards. So, something is 
missing here within the firefighting agencies.
    Mr. Bosworth. Part of the answer to your question is yes, 
we have looked at that. We have contracted out. I cannot speak 
as specifically to this as I would like to, but I know that a 
few years ago there were some contracts with some consulting 
firms to look at our safety program overall. There has been a 
number of things that have been done in the last several years 
to find out what other organizations are doing and to try to 
improve our knowledge and our record.
    I cannot tell you why we did not do them. I was not here. I 
cannot tell you whether we dropped the ball, whether we 
implemented some of those and did not implement others. But I 
know that there have been some outside looks at what we are 
doing.
    Senator Cantwell. Let me ask you a few other questions if I 
could. The issue of review of these fire incidents: they have 
oftentimes been done within the Forest Service. Do you think 
that there is a need to have someone outside the Forest Service 
look at these incidents similar to how the National 
Transportation Safety Board does investigations of airline 
crashes? Do you think it is necessary for an entity that is 
more objective about the causes and the severity of the 
incident to have an independent view on the Forest Service and 
its safety practices?
    Mr. Bosworth. I think it is always good to have eyes other 
than our own look at what we are doing. I believe that the 
investigation team that we assigned to this investigation--
there was a lot of experience. There were several people that 
were from outside the Forest Service. The lead investigator was 
a contract investigator. There was a person I believe from the 
University of Montana that brought some expertise. Then we also 
had two people from OSHA that were participating very closely 
with the investigation team. So, it was not just a 100 percent 
internal look at ourselves.
    On the other hand, I do not want to be defensive about 
having other people look at other ways of doing it as well. 
What I want to do is to figure out what is going to work. But 
again, I think that the problem that we have--and Jerry said 
it--is more of a performance issue rather than whether or not 
we are doing a good job of investigating what took place.
    Senator Cantwell. Well, let me ask you one last question. 
Then I want to get on to our other panel. You mentioned OSHA. 
OSHA is in the process of doing a review of this incident as 
well, as I am sure they have in other past fire incidents, 
because they have oversight in working with Federal agencies. 
But I am not sure exactly what you do with their 
recommendations.
    Mr. Bosworth. Well, we follow their recommendations. I know 
it has been said by some on occasion that, well, if you do not 
have some kind of financial fine or something from OSHA that it 
does not carry much clout, but I can tell you that getting a 
willful negligence citation from OSHA when someone dies is not 
something to be taken lightly, and we do not take that lightly.
    Senator Cantwell. But what happens?
    Mr. Bosworth. Well, again we have the accountability 
aspect, which is always again after the fact, after somebody 
has been injured or died. We also have recommendations from 
OSHA that we follow. We do not take the recommendations from 
OSHA and just throw them in a drawer someplace. At least all 
the ones I have been involved with at the region and forest 
levels where I have worked, we have taken the OSHA 
recommendations very seriously.
    Senator Cantwell. Well, I think that there is some question 
as to how we can come up with these same caused factors, these 
same recommendations for change and be in the same place if 
these OSHA recommendations have been implemented. So, I would 
be curious to see how we might take that further. I find it 
hard to explain to my constituents in the State of Washington 
or in Yakima why a Yakima business has to comply with OSHA 
standards, is penalized when those OSHA standards are not met--
whether by losing jobs or being financially fined--and yet this 
Federal agency that we guarantee is going to implement health 
and safety standards is not accomplishing the job.
    So, I would like to further dialogue with the Forest 
Service about a variety of issues: job training and the need to 
increase it; the need for independent oversight when incidents 
occur; and the issue of accountability. I am taking you at your 
word and with sincerity, especially since you are new on the 
job as Chief, that you want to institute a culture of 
accountability.
    But my opinion, in reviewing this information and reviewing 
the data, the Forest Service has a cultural problem. The 
necessary safety standard is not culturally there. I guarantee 
you it is not the same standard that is in place at the Hanford 
Nuclear Reservation or in air transportation or other sectors 
in which people know that they are going to be held 
accountable. I think that that is where we need to move the 
Forest Service.
    Mr. Bosworth. Well, again, I think that we need to learn 
from this. I will tell you again that I am committed and I know 
Jerry is committed to making the kinds of changes, 
accountability, as well as the other changes that need to be 
made, to minimize the risk to firefighters.
    I do not want to leave here without saying, though, that 
firefighting is dangerous and that does not make it okay to 
lose people, but it just means that we have to be that much 
more vigilant in terms of making sure that we do everything we 
can to minimize the risk to our firefighters.
    Senator Cantwell. Well, thank you, Chief Bosworth and Mr. 
Williams, for your testimony today. We appreciate your being 
here.
    As the chairman mentioned, we will be holding open the 
record, so I am sure there probably will be other questions 
from other members. If you could get those back to us in 
writing, we would greatly appreciate it. I am sure that my 
office, as well as some of the others, would like to explore 
more ways with you besides the continuing dialogue with 
Congress on how we can make sure that safety plans actually are 
implemented.
    I would like to call up our next panel: Mr. Philip 
Schaenman, president of the TriData Corporation, which 
conducted the SAFE study we have been discussing here. Mr. 
Schaenman is going to be joined by Mr. Paul Gleason, professor 
of Forest Science at Colorado State University. Mr. Gleason was 
part of the Nation's Federal firefighting force for more than 
20 years before taking his present position, so I look forward 
to comments from both the academic world and the world of 
frontline firefighting.
    Finally, we have Mr. Ken Weaver of Yakima, Washington, as 
well as other members of the Weaver family, but I will let him 
introduce them. Mr. Weaver's son Devin was one of the four 
brave young firefighters killed in the line of duty at 
Thirtymile Fire this July. I believe that Mr. Weaver has a very 
compelling story to tell. I am glad that he is here today, but 
I give my condolences to his family and am sorry that they have 
now had to take up this cause in the aftermath of the 
Thirtymile accident. But, Mr. Weaver, I appreciate your being 
here today. If you want to take this opportunity to introduce 
the rest of your family here.
    Mr. Weaver. Thank you, Senator Cantwell. My name is Ken 
Weaver. This is my wife Barbara, my oldest daughter Jeanette, 
and my youngest daughter Andrea. Devin was 21 years old, 
between the two daughters. Thank you.
    Senator Cantwell. I think, Mr. Schaenman, we are going to 
have you go first.

           STATEMENT OF PHILIP SCHAENMAN, PRESIDENT, 
               TRIDATA CORPORATION, ARLINGTON, VA

    Mr. Schaenman. Thank you. Just a quick way of personal 
introduction. I am Phil Schaenman. I am president of TriData 
Corporation, which is a subsidiary or System Planning 
Corporation in Arlington, Virginia. Firefighter safety is one 
of our specialties within a broader range of work on public 
safety and national security issues.
    Before I started TriData 20 years ago--we are celebrating 
our anniversary next week, as a matter of fact, 20th 
anniversary--I was the associate administrator of the U.S. Fire 
Administration, and before that I worked on the manned space 
program, which actually was one of the largest safety 
engineering programs that we have ever done in this Nation, if 
you think about it that way.
    After the South Canyon fire in 1994 that killed 14 
firefighters, there was a widespread feeling that despite all 
the attention that had been paid to safety, we were seeing the 
same kind of problems over and over again killing firefighters.
    In 1995, the five Federal agencies that did most of the 
wildland firefighting decided to have an in-depth 
multidisciplinary study of firefighter safety conducted by an 
outside organization, and I ran that study. Its goal was to 
identify the most important issues underlying wildland 
firefighter safety and then recommend in detail what to do 
about them. It was an unusual, even courageous Federal study. 
It did not pull any punches. Our team was given academic 
freedom, and it included sociologists and psychologists who 
were expert on how to change the culture of workplace safety.
    In the first phase of the study, we interviewed in person 
300 firefighters and did a written survey of another 700, for a 
total of 1,000 that you mentioned earlier. The firefighters 
were extremely candid. They spoke from the heart. There was 
remarkable consistency across all five agencies, across regions 
of the country, across all ranks in firefighting that we heard 
from.
    They raised hundreds of specific problems, and we made over 
200 recommendations in response. And that large number of 
safety issues is a problem itself because it is difficult for 
humans to keep checking on so many things all the time, and it 
is also difficult for agencies to deal with such a larger 
number of problems. It is not just a few things. There may be a 
few things that come out of an individual fire investigation, 
but when you look across fires, there are many, many things.
    The firefighters said there were many strengths in the 
national approach to wildland firefighting, but let me focus in 
the short period of time I have on what some of the most 
important safety issues were and what some of our key 
recommendations were.
    The first was to ensure that the people out in the wildland 
firefighting leadership positions are qualified, and to do 
that, we recommended better screening of candidates for their 
leadership aptitude and then training them better in decision 
making under stress and how to improve fire ground situational 
awareness. And that means practicing a large variety of 
scenarios, and it is expensive training and a lot of people 
have to be involved in it.
    To promote accountability, we recommended including safety 
as part of employee performance evaluations, and we recommended 
giving appropriate career penalties when safety practices are 
violated. This was done for the astronauts. It is done in NFL 
sports. It is done on the decks of aircraft carriers, and it 
can be done in firefighting.
    To rebuild the level of wildland firefighting experience, 
which has deteriorated, we recommended developing a strategic 
human resources plan to keep the talent pipeline filled at all 
levels, and we encouraged making a special effort to retain the 
more experienced fire leaders because they have better judgment 
in emergencies.
    We recommended that training be made more realistic and 
more visual to compensate, in part, for the lack of field 
experience. That high quality training is critical both to 
teach safety practices and the proper use of safety equipment, 
such as shelters. The firefighters have to be given special 
training to respond properly and without hesitation in life-
threatening situations.
    Another safety goal was that radio and face-to-face 
communications be not only heard but understood, especially the 
messages critical to safety. The firefighters have to learn to 
ask questions when their orders are unclear, and the senders of 
the messages have the responsibility to ensure that the message 
was understood, perhaps similar to the way pilots and air 
traffic controllers do. When you say move from area A to area 
B, you say, right, area B, understood.
    It is also important that all crews have radios so they can 
immediately receive a message such as evacuate now.
    Changing the culture of communications is one way to change 
the culture of safety. Another way is to make it not just 
acceptable for firefighters to raise concerns about safety, but 
a professional responsibility to do so, again as exists with 
air crews and ground personnel.
    Yet another safety principle that is important is to avoid 
pushing individuals beyond their capabilities. Crew supervisors 
need to watch for symptoms of fatigue, and they have to 
accurately report the level of fatigue when their crews first 
report in.
    The crew supervisors need to work at building crew cohesion 
so that the crews not only work well together, but they respond 
together in emergencies.
    We need to better target and evaluate the safety programs 
among all this myriad of issues, and we need a better data 
system for reporting injuries and also near misses.
    Finally, we need to improve the safety of the wildlands 
through expanded fuel treatment programs and to better educate 
the public who choose to live in wildland areas so they can 
reduce fire risks themselves. These actions would improve not 
just the public safety, but also reduce firefighter injuries.
    Over 1,000 firefighters died in the decade before September 
11, and 300,000 were injured. They routinely turn in heroic 
performances to save people and our natural resources.
    And there have been many positive steps since our study. We 
just started a follow-up study for the Forest Service.
    We can do even better if the safety program gets adequate 
resources and the safety and health functions are given more 
visibility on organization charts. All of this training, all of 
these things cost money and they have to have adequate 
resources, otherwise the safety programs will not be taken 
seriously and they will not be adequately effective.
    I think we have a moral obligation to listen to the 
thousand firefighters who poured their hearts out to us and an 
obligation to honor the firefighters who gave their lives. And 
on behalf of all those firefighters, I thank the committee for 
holding this hearing, and I would be glad to answer any 
questions.
    [The prepared statement of Mr. Schaenman follows:]
Prepared Statement of Philip Schaenman, President, TriData Corporation, 
                             Arlington, VA
    My name is Philip Schaenman. I am President of TriData Corporation 
of Arlington, Virginia. TriData specializes in a wide range of public 
safety issues, from fire safety to bioterrorism surveillance. Prior to 
TriData, I was the Associate Administrator of the United States Fire 
Administration from 1976 to 1981. Before that, I worked as an engineer 
on manned spaceflight safety issues.
    Following the tragic 1994 South Canyon, Colorado fire in which 14 
federal wildland firefighters died, there was a great deal of soul 
searching in the wildland firefighting community. Despite the attention 
paid to safety, there still were unsolved problems and underlying 
factors that led to recurrence of the same kinds of tragic firefighter 
losses as had occurred in the past.
    The five federal agencies that do most of the wildland firefighting 
are the Forest Service, Bureau of Land Management, National Park 
Service, Bureau of Indian Affairs, and Fish and Wildlife Service. 
Together they decided to support an in-depth, multidisciplinary 
examination of firefighter safety by an outside organization. It was 
called the ``Wildland Firefighter Safety Awareness'' study but was even 
broader in scope than the name implies. My company, TriData, was 
competitively selected in August 1995 to start what turned out to be a 
five-year effort to identify in detail the many facets of the wildland 
firefighter safety problem, and then recommend what to do about it. 
This was a highly unusual, even courageous, federal study that pulled 
no punches. It was guided by Bill Bradshaw of the Forest Service. The 
contract officer came from the Bureau of Land Management. A multi-
agency steering committee guided the general approach, but we had total 
academic freedom when it came to describing the findings and making 
recommendations. Our study team included sociologists and psychologists 
expert in safety issues, as well as wildland fire safety experts. I led 
the study.
    The study had four phases: identifying the safety problems in 
depth; developing a vision for the future; describing how to get from 
here to there; and then helping with implementation.
    In the first phase, we interviewed in person 300 federal wildland 
firefighters of all ages and ranks across all regions of the nation, 
and also many safety experts. We solicited their perception of the 
biggest safety issues, and what to do about them. We followed that up 
with an in-depth, written survey of another 700 federal wildland 
firefighters, for a total survey of 1,000 firefighters. The written 
surveys helped rank order the issues identified. The firefighters and 
fire program officials we heard from were extremely candid and spoke 
from the heart. There was remarkable consistency in what they told us 
about safety issues across the nation. They raised too many specific 
problems to describe them succinctly, which is a major problem itself; 
the huge challenge to improving safety is that it is necessary to pay 
attention to a great many details and to have the resources to 
adequately train, adequately equip, and adequately staff the entire 
wildland firefighting force. It also is necessary to give adequate 
visibility and authority to the safety and health managers who oversee 
safety programs, or the function is not taken seriously by the 
workforce.
    We found that the broad strokes of safety practices and policies 
are there, but it is difficult to get humans to pay attention to the 
myriad of safety issues all of the time. Overall, the wildland 
firefighters have had a fairly good safety record relative to the 
hazards of the job. For example, despite the very high physical demands 
of wildland firefighting, very few succumb to heart attacks on the job, 
primarily because of good fitness screening programs.
    Three-quarters of the wildland firefighters we surveyed rated the 
interagency wildland firefighting approach as good to excellent. They 
noted a long list of strengths of the current national system. A 
summary of them is attached. (It is Table 1, Executive Summary, Phase 
1, Wildland Firefighter Safety Awareness report.) * They said that the 
general approach should be kept but it should be fixed to work better.
---------------------------------------------------------------------------
    * Attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    Now let me summarize the safety problems they identified. The 
problems fell under the broad headings of improvements needed in the 
organizational culture, such as making it acceptable to raise safety 
issues; improvements needed in firefighting leadership, especially in 
the middle levels; attention to human factors, such as maintaining 
situational awareness literally in the heat of battle; and external 
influences on safety, such as the condition of the forests and the 
actions of the people who are building homes in wildland areas.
    In Phase II of the project, completed in January 1997, we defined a 
vision for the future--what the safety environment ideally should look 
like. Ultimately, 86 goals were identified, grouped under broad 
categories such as making improvements in firefighting strategy with 
limited resources; improving accountability of firefighters at all 
levels; increasing experience of the firefighting workforce; further 
improving physical fitness; improving flow of critical information to 
crews; increasing training at all levels; addressing the fatigue 
problem; and addressing the human and psychological factors that 
sometimes stop firefighters and their supervisors from paying as much 
attention to safety as they should. The goals were discussed and 
accepted by the fire directors of the five major wildland firefighting 
agencies before we moved on to Phase III.
    In Phase III of the study, completed in March 1998, we developed 
specific strategies to meet each of the goals. We titled the Phase III 
report, ``Implementing Cultural Changes For Safety,'' because without 
the cultural changes, many of the other changes were not likely to 
follow. Our multi-disciplinary team made suggestions on how one could 
truly change the culture in a way that safety was imbedded in everyday 
actions. We ultimately made over 200 recommendations for specific 
implementation strategies to achieve the 86 goals. (Attached to this 
Testimony is a complete list of the goals and the suggested 
implementation strategies.) Let me give you a few examples.
    To assure that people in the leadership positions at all levels 
were qualified, the study recommended better screening of potential 
leaders from crew supervisor up through agency administrators, and then 
training them in decision-making under stress, and how to improve 
situational awareness and be prepared to handle the unexpected; one can 
train for those skills.
    To promote accountability for safety at all levels, we suggested 
including safety as part of employees' performance evaluations, and 
giving appropriate penalties when safety practices are violated. 
Penalties for safety violations are given in NFL sports, aircraft 
carrier operations, civilian air operations, and manned space flights. 
It can be done in firefighting, too. Accountability needs to be taken 
seriously.
    To rebuild the level of firefighting experience, which has 
deteriorated over the past decades in part because of the lack of 
incentives for experienced fire managers and firefighters to stay in 
firefighting, we recommended developing a strategic human resources 
plan and working to keep the talent pipeline filled at all levels. We 
encouraged making a special effort to retain experienced fire leaders 
and firefighters, who tend to have better judgment in emergencies. That 
is easy to say but a big effort to do.
    We recommended that training be made more realistic to compensate 
in part for the lack of field experience. This includes more training 
under field conditions, use of more visual materials, and use of 
virtual reality simulators like the military uses. High quality, 
repeated training is critical to explain safety practices and the use 
of safety equipment such as shelters. Training must also include 
responding properly and without hesitation in a life threatening 
situation.
    Another important safety goal is that communications be clear and 
understood, especially the critical safety messages in the field. 
Firefighters should ask questions when radioed or face-to-face 
instructions are unclear. There should be feedback from receiver to 
sender, similar to the way pilots and air traffic controllers do it: a 
short piece of the transmitted message is repeated to confirm that the 
message is understood. And it is important for all crews to have radios 
and to be continually in reach of safety information such as when to 
evacuate.
    Changing the nature of communications besides being important in 
its own right is a key to changing the culture. Another way to change 
the culture is to make it not just acceptable to raise concerns about 
safety, but a professional responsibility from the line firefighter up 
the chain of command. We recommended cultivating an attitude that 
practicing safety is equivalent to being professional.
    Yet another important principal is to avoid pushing individuals or 
crews beyond their capabilities. Crew supervisors must watch for 
symptoms of fatigue and dehydration, and try to prevent them. The 
supervisors must accurately report the level of fatigue of their crews 
when reporting in.
    It is also important for crew supervisors to explicitly build crew 
cohesion so that they not only work well together, but also share 
safety responsibility and respond properly together in extreme 
emergencies.
    And we recommend improving the comprehensiveness and reliability of 
safety data, and using it to evaluate programs and detect emerging 
problems.
    Finally, one of the most frequently mentioned aspects of safety we 
heard from wildland firefighters was to improve the safety of the 
wildlands through expanded fuel treatment programs. They also want to 
educate the public on prevention and on the limitations of what 
firefighters can be expected to do. If people insist on building in 
wilderness areas that frequently experience natural fires, they should 
not expect the firefighters to risk their lives to save their homes.

                         *    *    *    *    *

    Over 1,000 urban, rural, and wildland firefighters died in the 
decade ending before September 11th. Wildland firefighters and urban 
firefighters routinely turn in heroic performances to save people and 
our natural resources.
    There has been an enormous amount of attention paid to safety. 
There already are many good safety practices. We know that many 
additional measures have been taken as a result of our study and the 
other studies and investigations that it built on. The many issues 
can't all be dealt with at once. But we can go much further than we 
have with better training, better equipment, and better information--
all of which leads to safer firefighting. The safety problem needs 
adequate resources, adequate attention, and visibility.
    As project manager of the study, I had the unique privilege of 
having access to all of the confidential comments the firefighters 
made, including survey forms returned with smudges from fire sites. I 
believe we have a moral obligation to listen to them. This Committee is 
doing that, and I thank you for it on behalf of all the firefighters we 
heard from.

    Senator Cantwell. Thank you, Mr. Schaenman. I want to let 
the rest of the panel speak, and then we will do questions. So, 
Mr. Gleason, you are next.

   STATEMENT OF PAUL GLEASON, PROFESSOR OF FOREST SCIENCES, 
          COLORADO STATE UNIVERSITY, FORT COLLINS, CO

    Mr. Gleason. It is an honor to be able to address you today 
on behalf of firefighter safety.
    From 1964 until January of this year, my job was as 
superintendent, as a firefighter on an interagency hotshot 
crew. I took relatively in experienced firefighters into 
hostile situations, volatile firefights where my responsibility 
was their health and welfare, and I had to make critical 
decisions, technical decisions that would ensure their safety. 
It is that that I want to address and talk with you about 
today.
    One thing that is important at a high price we have learned 
these lessons, the fire orders, the 18 situations, LCES, and a 
number of other guidelines and rules to ensure that 
firefighters return home after the firefight. And I do not 
think we need any more rules. We do not need any more 
guidelines. We have what is needed.
    What we really do need is experienced fireline supervisors 
that are skilled in risk management, not governed by orders and 
rules, but skilled in risk management, much like the military. 
And risk management is based on a common set of values. I think 
that right there is extremely important. We do not have the 
basic framework we need to develop risk management from.
    Where firefighters seem to be most vulnerable is when a 
decision is to be made to engage or disengage from their 
location in a highly dynamic environment. And this is an 
environment where just the slight angle of the sun or a change 
in moisture or a change in wind will turn the whole situation 
into a volatile one.
    Individuals making decisions can only frame them in the 
context of their own unique experience, and it is a lack of 
that experience at times that we do run into out on the 
fireline. Tactical fireline decisions cannot always be 
supported by computer models. Operations in the wildland fire 
environment are often too complex for that.
    Since 1994, in the wake of South Canyon, I have noticed a 
refocusing of training toward decision making and leadership 
skills. The firefighters have enlisted the advice of 
organizational scientists such as Karl Weick and psychologists 
such as Gary Klein to better understand firefighter safety. And 
I believe this work is apparent in the current and planned 
leadership training. Still, sometime outside the training 
environment, one individual will be called upon to make the 
correct decision, and are we sure next summer the newly trained 
leader will make the right call?
    One system in place to help decision makers is the 10 fire 
orders and the 18 watch-out situations. These are supposed to 
provide a mental checklist that will prevent injuries and 
fatalities. However, I feel the orders are too numerous and 
cumbersome to be useful in a fast-changing atmosphere of 
wildland firefighting. Perhaps that is why some firefighters 
see these as guidelines and not orders to be obeyed.
    In a less complex system, embracing risk management, the 
skills in risk management could be used that would still 
encompass the spirit of the 10 and the 18. For example, one 
such system is the use of LCES as a risk management tool, LCES 
being lookouts, communications, escape routes, and safety 
zones. Already that is being used by some wildland 
firefighters, but I believe LCES should replace the 18 and 10 
as a basic framework for fireline risk management.
    Fireline decision making has been likened to a slide 
projector carousel of experiences, where each new situation 
faced adds a new slide to that carousel. When an experienced 
decision makers is faced with a new decision, they mentally go 
through their slides to help them understand the current 
situation. Initially the new firefighter has no slides and only 
through experience will they add more. During this time, a 
safety conscious leader must mentor the new firefighter. This 
is especially necessary for inexperienced people in fireline 
leadership positions.
    What can Congress do to help firefighter safety? First, I 
believe it is important to realize that often these critical 
decisions are being made by nearly entry level employees who 
are in the process of assembling their slide trays. And are we 
comfortable with these inexperienced leaders making life/death 
decisions under stress when they are first out there on their 
own?
    Second, we must take every opportunity to send our 
firefighter trainees to the firelines where they can gain real 
fire experience under a strong, field-proven supervisor. Here 
leadership and decision making skills can be observed and 
trained firsthand. In this situation, we have a mentor who can 
provide a backup slide for the trainee. There is especially a 
need for experienced people to fill this mentor role, but all 
too often experienced people get pulled off the fireline and 
into management positions, trading chainsaws for coffee cups 
and looking at spreadsheets instead of flames. This practice 
takes away from the field exactly the people who most need to 
be there to train tomorrow's fireline supervisors. The U.S. 
military employs a similar technique successfully. This 
strategy will increase suppression costs somewhat. However, in 
light of the alternative, the cost is insignificant.
    Wildland firefighting is unique in that it is accomplished 
through manual labor, using some of the most basic of tools, 
shovels and axes, while at the same time, this work occurs in a 
highly dynamic environment where often there is only limited 
information. Firefighter safety, at some moment in the future, 
will be entirely determined by the leadership and decision 
making skills of the individual in charge. I ask that this need 
be addressed with the urgency it deserves.
    Today on behalf of all past, present, and future wildland 
firefighters, I thank Congress for their efforts to improve 
firefighter safety, and I ask for your continued vigilance and 
support for those firefighters who risk their lives on behalf 
of the Nation. I thank this committee for the opportunity to 
speak here today on this important issue.
    [The prepared statement of Mr. Gleason follows:]
   Prepared Statement of Paul Gleason, Professor of Forest Sciences, 
              Colorado State University, Fort Collins, CO
    It is an honor to be able to address you today on behalf of 
firefighter safety. My name is Paul Gleason. I am currently on the 
faculty at Colorado State University where I teach fire ecology and 
fire management. I spent most of my career as a supervisor of an 
Interagency Hotshot crew taking relatively inexperienced firefighters 
into volatile wildland firefights. Their safety and well-being was my 
responsibility. Along with concern for my crew's safety, I believe on 
the fireline I was aggressive in accomplishing suppression objectives. 
Often I had to make critical decisions in tactical situations that 
potentially threatened my crew's safety. It is the fireline 
supervisor's decision-making ability in the dynamic wildland fire 
environment I want to focus on.
    Wildland fire fatalities are not a new event. Even prior to the 
infamous 1910 fires, history records numerous lives lost while trying 
to contain and control wildfires. Within the last fifty years: 1949 
Mann Gulch, 12 smokejumpers; 1956 Inaja, 11 firefighters. And 10 years 
later Loop, 12 members of a hotshot crew lost their lives while 
building a fireline downhill into a chimney. Recently, 1994 South 
Canyon, 14 firefighters; smokejumpers, hotshots and helitack members 
lost their lives; and of course the Thirtymile tragedy which brings us 
here today.
    At a high price, wildland firefighters have learned how to 
recognize signals in their environment and they have learned how to 
work safely in their dynamic environment. They have assembled countless 
operational procedures, orders, and guidelines to ensure firefighters 
return home safely. They don't need help in assembling more--I 
personally don't think there needs to be more. What is needed is 
experienced fireline supervisors. People who know enough to make tough 
decisions in the dynamic and dangerous wildland fire environment.
    Where firefighters seem to be most vulnerable is when a decision is 
made to engage or disengage from their location in a highly dynamic 
environment; An environment where only a slight change in the angle of 
the sun, or the humidity, or wind can change a fire's behavior. 
Individuals making these decisions can only frame them in the context 
of their own unique experiences. Tactical fireline decisions cannot 
always be supported by computer models. Operations in the wildland fire 
environment are often too complex for that.
    Since 1994, in the wake of South Canyon, I have noticed a re-focus 
in training toward decision-making and leadership skills. Firefighters 
have enlisted the advice of organizational scientists (Karl Weick) and 
psychologists (Gary Klien) to better understand firefighter safety. I 
believe this work is apparent in the current and planned Leadership 
training. Still, sometime outside the training environment, an 
individual will be called upon to make the ``correct'' decision. Are we 
sure next summer the newly trained leader will make the right call?
    One system in place to help decision-makers is the 10 Standard Fire 
Orders and the 18 Watch Out Situations. These are supposed to provide a 
mental checklist to prevent injuries and fatalities. However, I feel 
the orders are too numerous and cumbersome to be useful in the dynamic 
and fast-changing atmosphere of wildland firefighting. Perhaps that is 
why some firefighters see the 10 & 18 as ``guidelines that cannot 
always be followed'' rather than orders to be obeyed. I think a less 
complex system, based on predetermined norms and values of the wildland 
fire industry, could be used that would still encompass the spirit of 
the 10 & 18. One such less complex system uses the acronym LCES--
Lookouts, Communication, Escape Routes, and Safety Zones. This is 
already used by some wildland firefighters, but I feel LCES could 
officially replace the 10 & 18 as the primary safety guideline for 
fireline decision making.
    Fireline decision-making has been likened to having a ``slide 
projector carousel of experiences'' where each new situation faced adds 
a slide to the carousel. When an experienced decision-maker is faced 
with a new situation, they mentally go through their slides created in 
the past to help them understand the current situation. Initially the 
new firefighter has no slides and only through experiencing more fire 
situations will they add more slides. During this time, a safety-
conscience leader must mentor the new firefighter. This is especially 
necessary for inexperienced people in fireline leadership positions.
    What can Congress do to help firefighter safety? First, I believe 
it is important to realize that often these critical decisions are 
being made by nearly entry-level employees who are in the process of 
assembling their ``slide tray'' of experiences. Are we comfortable with 
these inexperienced leaders making these life and death decisions, 
under stress, when they are first out there on their own?
    Second, we must take every opportunity to send our firefighter 
trainees to the firelines where they can gain real fire experience 
under a strong, field-proven supervisor. Here leadership and decision-
making skills can be observed and trained first-hand. In this situation 
we have a mentor who can provide a ``back-up slide'' for the trainee. 
There is especially a need for experienced people to fill this mentor 
role. All too often experienced people get pulled off firelines to 
management positions; trading chainsaws for coffee cups, and looking at 
spreadsheet instead of flames. This practice takes away from the field 
exactly the people who most need to be there to train tomorrow's 
fireline leaders. The U.S. military employs this technique 
successfully. This strategy will increase suppression costs somewhat; 
however, in light of the alternative this cost is insignificant.
    Third, fire management strategies must be identified that are 
consistent with the values at risk. Much too often a strategy is 
selected requiring individuals to travel through the night putting them 
on the fireline during active burning conditions with little to no 
sleep. Fatigue is one of the greatest obstacles to quality decision-
making; my experience and numerous studies support this. Fatigue-
reduction strategies may result in more acres burned by fire, however, 
under severe weather and fuel conditions this may be the best 
alternative. I believe as land management plans are revised, and fire 
management plans are developed to support the land management goals, 
appropriate strategies can be identified to guide management response 
to wildland fire under various scenarios. The fire management community 
can use your support in marketing these strategies to the public.
    Fourth, everyone here is familiar with the current forest structure 
after many years of aggressively suppressing fire from much of our 
landscape. The fuel problem is a reality. I am convinced as we begin to 
manage the fuels in the critical wildland/urban interface we will see 
improved firefighter safety. Many of the fires today are backing 
firefighters into a hard corner when it comes to operations in a 
heavily-fueled interface. Re-arranging these fuels will take time and 
is not only a single year's fix. Fire management needs your support in 
both marketing this effort to our public and your understanding the 
fuel situation will take time.
    Wildland firefighting is unique in that it is accomplished through 
manual labor using some of the most basic of tools, e.g., shovels and 
axes, while at the same time this work occurs in a highly dynamic 
environment where often there is only limited information at best. 
Regardless of how the fuels are managed or the appropriate response to 
a wildland fire, firefighter safety at some moment in the future will 
still be entirely determined by the leadership and decision-making 
skills of the individual in-charge. I ask that this need be addressed 
with the urgency it deserves.
    Today, on behalf or all past, present, and future wildland 
firefighters, I thank Congress for their efforts to improve firefighter 
safety and I ask for your continued vigilance and support for those 
firefighters who risk their lives on behalf of their nation. I thank 
this committee for the opportunity to speak here today on this 
important issue.

    Senator Cantwell. Thank you, Mr. Gleason, and thank you for 
being here. I appreciate your years of experience.
    Mr. Weaver.

              STATEMENT OF KEN WEAVER, YAKIMA, WA

    Mr. Weaver. Thank you. On behalf of the other three 
survivor families that were unable to attend today and on 
behalf of my family and my son Devin, I thank you for this 
opportunity.
    My wife Barbara sleeps lighter than I do, so she heard the 
phone ring at 1:05 in the wee hours of July 11. I woke up 2 
minutes later with Barbara screaming in panic and terror. She 
said, there is a guy on the phone and he says Devin is dead. 
You have got to talk to him and tell him he is alive.
    In that moment of realization, the beginning of a nightmare 
came, a nightmare that would change the rest of my life. I knew 
I had lost my best friend, my golf, my hunting partner, my 
camping partner, my lifetime protector, my last name, my only 
son.
    The next 8 hours were spent in the state of shock. After 
the initial wave of pain began to pass, all I could think of 
was how could they do this.
    Three members of the U.S. Forest Service came to our house 
the next afternoon to give us the first details of the tragedy. 
They described an out-of-control wildfire acting erratically 
entrapped and burned to death my son. What they could not 
explain were the empirical facts. This crew was down a dead end 
road. They had ground tools. Yet the fire was over 100 feet 
high. The fire was, indeed, out of control but had been for 
several hours. It was not a surprise. They were in a steep box 
canyon. They were down a dead end road.
    As information became available over the next days and 
weeks, what emerged is something far different than an act of 
God. What emerged was a story of managerial misconduct, 
ignorance of all safety rules and warning signs to a degree 
that you could only describe as criminal. With 21 days of 
experience on their first major fire, these kids were led down 
a dead end road in front of an out-of-control canopy fire. And 
even after they were trapped, with the fire screaming down both 
sides of this canyon, they were given no leadership. They were 
given no help. They were not even given any order to prepare, 
no defensive actions. They never even heard an order to deploy 
their shelters.
    Do not be confused. This is how these guys died. They were 
not defending their country. They were not acting heroically. 
They did not give their lives. They were just doing their job 
just as they were instructed, as best they were trained, and 
they had their lives taken.
    My son was so proud to be an American, and he was even more 
proud of the Government he loved. He came home after his first 
week of training, had a smile on his face that went from ear to 
ear. He says, Dad, I'm a Fed. He was just delighted. But the 
gut wrenching tragedy that I feel here is I believe the only 
reason he lost his life was because he was a Fed, not because 
of the job he was doing, but because of who he was doing it 
for.
    The U.S. Forest Service does not have to account for its 
safety violations to anyone. Safety violations, so egregious 
they would be criminally prosecuted if they occurred in the 
private sector, do not even warrant a fine. In fact, they are 
allowed to police themselves with absolutely no oversight from 
any other agency. Oh, sure, OSHA writes citations, but they 
cannot levy fines. I find it very difficult to call that 
oversight.
    This is an agency that has had de facto autonomy. They 
operate completely unencumbered. They can choose to ignore any 
or all of their own rules. In fact, they can violate every 
single safety rule they have and they can ignore every single 
sign of danger, abandon all common sense, operate with no clear 
command structure, with no coherent plan of attack while they 
drive down a dead end road in a steep box canyon in front of an 
out-of-control wildfire. They can do all this and continue on.
    Instead, our children paid the highest price possible, just 
as others have paid this terrible price before them and, unless 
we change something in a hurry, just as others yet will pay 
this price again.
    Accountable government is the foundation of our democracy. 
Accountable government is what makes the free world free. Our 
Founding Fathers dumped tea in Boston Harbor for accountable 
government. Our greatest generation fought and died to preserve 
it. My own father clung to life for over 6 hours in the Pacific 
Ocean. His ship was sunk by Kamikazes. He fought and nearly 
died so that his children and his grandchildren could live free 
with an accountable government.
    It seems morally bankrupt to me to stringently enforce 
worker safety in the private sector but make Federal employees 
working for the Government risk injury and death because safety 
rules were unenforceable. How can we ask our best and brightest 
young people to come protect our forests if we are not willing 
to protect their lives? How many more brave, dedicated young 
people will we betray by not ensuring the highest possible 
level of workplace safety?
    Adding to the irony of this disaster is the fact that, as 
we have heard earlier in the TriData report, the Forest Service 
has been aware of this problem for over 10 years, at least. It 
clearly outlined the problem in their report and it clearly 
outlined the solution. We do not need more safety rules. The 
safety rules we have are excellent. All we need to do is 
enforce them. Without enforcement, supervisory personnel on the 
fireline have little incentive to stick with procedure. Fear of 
their own safety does little to motivate them in the heat of 
battling a blaze.
    Does anybody in this room put on a safety belt on the way 
to the store because they fear for their lives? No. We follow 
the safety rule for fear of enforcement. We do not want the $45 
ticket. Even though it could mean the difference between life 
and death, the vast majority of us are motivated only by the 
potential of a fine. These fire managers are no different than 
you and I. Who among us here today follows any unenforced rule?
    They talk about how difficult and complicated the solution 
is. I scoff at that. Maybe it is my political naivete, but I do 
not see a complicated solution here. The Occupational Safety 
and Health Administration is charged with ensuring workplace 
safety for the Federal employees. In the private sector, they 
are given enforcement power. In the public sector, they are 
not. The question that has haunted my days and nights since the 
first hours of July 11 is, why not?
    As my son had said to me during his first week of training, 
these rules are in red ink because they are written in blood, 
Dad. Who would have known that they would have written the next 
action or inaction plan in his blood?
    Why? Why the double standard? Why not give OSHA enforcement 
power over all Federal employees? Can we possibly ask our 
people to suffer greater workplace risk just because of 
politics?
    This issue takes on even greater importance when you 
consider the effect of the aggressive fire suppression efforts 
the Forest Service has engaged in over the last 50 years. Fuel 
loads are at unnatural highs. We have continuing periods of 
drought combining to make the most dangerous wildfire 
conditions in history. We must not send our children into these 
fires without the most stringent adherence to safety.
    I am haunted by the pain and the sheer defeat that cut 
through me when I saw my son's name on a death certificate. I 
am here today to beg you, please, please do not let this happen 
again. Thank you.
    [The prepared statement of Mr. Weaver follows:]
              Prepared Statement of Ken Weaver, Yakima, WA
    Thank you for the opportunity to address the Committee.
    My wife Barbara sleeps lighter than I do. So it was her that heard 
the phone ring at 1:05 in the wee hours of July 11th. I was awakened 
two minutes later when Barbara, in a voice choked with panic, terror 
and hysteria came into the bedroom screaming, ``Ken, there's a man on 
the phone. He says Devin is dead. You talk to him, tell him Devin is 
alive.'' Thus began the nightmare that would change the rest of my 
life. In that first instant of realization I knew I had lost my best 
male friend, my golfing partner, my hunting partner, my camping 
partner, my lifetime protector, my last name, my only son.
    The next eight hours were spent in a state of shock. After the 
initial wave of pain began to pass all I could think of was, how could 
they do this. Three members of the USFS came to our home that afternoon 
to give us the first details of the tragedy. They described at act of 
God that was no one's fault. What they could not explain were the 
empirical facts. This crew was down a dead-end road. They had ground 
tools, yet the fire was over 100 feet high. The fire was indeed out of 
control, but had been for several hours before the crew trapped 
themselves in a steep box canyon in front of the flames. As information 
became available over the next days and weeks, what emerged was 
something far different than an act of God. What emerged was a story of 
managerial misconduct, that ignored all safety rules and warning signs, 
to a degree that can only be described as criminal. With twenty-one 
days of experience on their first major fire, these kids were led down 
a dead-end road in front of an out-of-control canopy fire. And even 
after they were trapped, with fire screaming at them advancing down 
both sides of the canyon, they were given the fatal advice that would 
cost them their lives twenty minutes later. ``Just hang out here, 
people. This thing will burn around us and we will be safe.'' You break 
every rule, you ignore every warning sign, and then incredibly don't 
even take one single defensive action to protect your crew.
    Don't be misled: This is how these young people died. They weren't 
defending their country, they weren't acting heroically, and they 
didn't give their lives. They were just doing their job as they were 
instructed when they had their lives taken. They died utterly and 
completely betrayed.
    My son was so proud to be an American and he was even more proud to 
work for the government he loved. He came home after his week of 
training with a smile as large as his face just bursting with pride and 
said, ``Dad, I'm a Fed.'' The gut wrenching irony here is that he lost 
his life not because of what he was doing, but who he was doing it for.
    The USFS does not have to account for its safety violations to 
anyone. Safety violations so egregious that they would be criminally 
prosecuted if they occurred in the private sector don't even warrant a 
fine when committed by the USFS. In fact, they are allowed to police 
themselves with absolutely no oversight from any other agency. Sure, 
OSHA will write citations, but they can't levy fines. It's difficult to 
call that oversight. This is an agency that has de facto autonomy; they 
operate completely unencumbered by any safety regulations. They can 
choose to follow their own rules, or they can choose to ignore any or 
all of them. In fact, they can violate every single safety rule they 
have, ignore every single sign of danger, abandon all common sense, 
operate with no clear command structure and no coherent plan of 
attack--while they drive down a dead-end road in a steep box canyon in 
front of an out-of-control wildfire. They can do all of this and pay no 
price. Instead, our children paid the highest price possible, just as 
others have paid this terrible price before them, and absent change, 
just as others yet will pay it again.
    Accountable government is the foundation of our great democracy. 
Accountable government is what makes the ``free world'' free. Our 
founding fathers dumped tea in Boston Harbor for accountable 
government. Our greatest generation fought and died to preserve it. My 
father clung to life for over six hours floating in the Pacific Ocean 
bleeding from a large shrapnel wound in his back after his ship was 
sunk by a kamikaze. He fought and nearly died so that his children and 
grandchildren could live free with a free and accountable government.
    It seems morally bankrupt to me to stringently enforce worker 
safety in the private sector, but make federal employees working for 
the government risk injury and death because safety rules are 
unenforceable. How can we ask our best and brightest young people to 
come protect our forests if we're not willing to protect their lives? 
How many more brave, dedicated young people will we betray by not 
insuring the highest possible level of workplace safety?
    Adding to the irony of this disaster is the fact that we have been 
aware of this problem for at least a decade and we already know the 
solution. The TriData report published in 1998 clearly outlined the 
problem, and the solution. We don't need new safety rules; the rules we 
have now are excellent. All we need to do is enforce them. Without 
enforcement, supervisory personnel on the fire-line have little 
incentive to stick with procedure. Fear for their own safety does 
little to motivate them, in the heat of battling a blaze. Does anyone 
in this room put on a seat belt on the way to the store for fear of 
their lives? No, we follow this safety rule for fear of enforcement. 
Even though it could mean the difference between life and death, the 
vast majority of us are motivated only by the potential of a fine. 
These fire managers are no different than you and I. Who among us here 
today adheres to any unenforced rule?
    The Occupational Safety and Health Administration is charged with 
insuring workplace safety for federal employees. In the private sector 
they are given enforcement power, in the public sector they are not. 
The question that has haunted my days and nights since the first hours 
of July 11th is, why not? As my son said to me during his week of 
training, ``these rules are written in blood, Dad.'' Who would have 
known that the next chapter would be written with his squad's blood? 
Why? Why the double standard? Why not give OSHA enforcement powers over 
all federal employees? Can we possibly ask people to suffer greater 
workplace risk just because of politics?
    This issue takes on even greater importance when you consider the 
effect of aggressive fire suppression efforts of the USFS over the last 
fifty years. Fuel loads are now at an unnatural high, and with 
consistent periods of drought, combine to make the most dangerous 
wildfire conditions in history. We must not send our children into 
these fires without the most stringent adherence to safety.
    I am haunted by the pain and the sheer defeat that cut through my 
heart when I saw my son's name on a Certificate of Death. Please, 
please . . . please don't ever let this happen again.

    Senator Cantwell. Thank you, Mr. Weaver, for your testimony 
and your willingness to come here and share this very painful 
moment. I want to again express my condolences to you and your 
family, and I want to express condolences on behalf of Senator 
Murray who wanted to be here today as well, and on behalf of 
other members of our State's delegation.
    Mr. Weaver. Thank you.
    Senator Cantwell. You have done us proud by being here and 
paying attention to this issue at a point in time when I am 
sure that you wish that these circumstances were very, very 
different.
    I have to ask you, Mr. Weaver, your son--do you know how 
much time he had being trained when he first was hired?
    Mr. Weaver. He just had the 1 week of training. They had 
taught him fundamentally how to use a shelter. But more than 
anything else, they taught him that the safety rules that the 
Forest Service has are never bent, never broken. They never 
ever told him that they, in fact, would break every single one 
of them and abandon all common sense. He was totally 
unprepared, totally untrained for that.
    Senator Cantwell. So, you think that Devin understood what 
the rules were, but when out on the fire scene, did not see 
them being exercised?
    Mr. Weaver. No. Devin thought that they were adhered to 
stringently. They told him these rules were never bent, let 
alone broken. He was very proud of the rules. He showed me a 
big, long sheet of rules that you had to follow just to start a 
chainsaw, something that he was very adept at using. And he 
said, my gosh, Dad, these guys are so safe. He scoffed at his 
mother's apprehension and his mother's fear. I never stated 
mine. His mother did. Devin scoffed and he said, Dad, these 
guys are so safe. There is no chance I could ever get hurt.
    Senator Cantwell. So, the fact that he had this 1 week of 
training and was able to produce these rules gave you and your 
family some sense of comfort that there really was a culture 
within the Forest Service that adhered to safety.
    Mr. Weaver. Oh, absolutely. I did not lose an ounce of 
sleep. Devin was an incredibly in-shape athlete. I figured, if 
the worst case scenario happened, with the physical training 
that he had put himself through running 7 miles a day with a 
30-pound pack on his back, if anyone could survive anything, 
Devin would. With the stated commitment to safety that the 
Forest Service had given him, and through him to us, I felt 
that there was absolutely no reason to be concerned at any 
level for his safety.
    Senator Cantwell. And when was his first fire?
    Mr. Weaver. His first fire, I think, was right after his 
training. It was just a little brush fire that they had out by 
the woodshed on Highway 410. There was only a dozen or so trees 
that burned. It primarily burned across a rocky slope.
    Senator Cantwell. When was this after his training? 
Shortly?
    Mr. Weaver. This was, yes, like a day or 2 after his 
training. They had him out stacking sticks, as they called it, 
until this fire started, and so he was delighted to get on a 
fire.
    He was chagrined to be put on this mop-up fire at 
Thirtymile because the big fire was at South Libby. And like 
all of these guys--I mean, these young people--I mean, there is 
this culture of machismo. They want to be out there on the big 
fire. It does not matter they are not trained. They are all 
relying on their supervisors for that. And when they sent him 
down this road, he had no clue it was a dead end road.
    Senator Cantwell. So, the Thirtymile Fire was what fire for 
him, as far as being actually out----
    Mr. Weaver. It was his first major fire, his second actual 
fire.
    Senator Cantwell. So, 1 week of training, coming home 
convincing his mom with his rule book, one brush fire, and then 
the Thirtymile Fire.
    Mr. Weaver. Correct.
    Senator Cantwell. That is the extent of his training as you 
knew it.
    Mr. Weaver. That was it. Period.
    I think his training would have only been complete if it 
would have included a disclaimer about the fact that we do not 
need to follow rules when it is not convenient. Had he had that 
suspicion, he would probably not have thought with the group 
mind and he would not have underestimated the risk of this fire 
bearing down on him.
    Senator Cantwell. Thank you.
    Mr. Gleason, you mentioned this change in the system--the 
LCES system--and possibly moving toward that instead of the 10 
and 18 rules currently in place. My question is, would the 
conditions at Thirtymile Fire have been obvious to most people? 
We were in the middle of the second worst drought on record in 
the State, given the elevation of the site, the fact that it 
was limited access, and the weather conditions, would not all 
of those have been early indicators of great concern?
    Mr. Gleason. Yes, they would have been. But I would not 
have expected first-year crew members to be alert to those kind 
of signals because in those 32 hours, they are hit with a lot 
of information. I liken it to when I was drafted and tried to 
remember the 10 orders that the Army teaches you. You have 10 
firefighting orders. You do not have any context to put that 
in. It is just a list of terms and concepts. I think to 
somebody who would be leading resources out there, that the 
fire behavior indicators were there with the drought and with 
the conditions the way they were.
    Senator Cantwell. So, who should have been paying attention 
to those conditions?
    Mr. Gleason. A crew supervisor on up the chain of command 
to the district, the forest level should have been aware of 
those conditions.
    Senator Cantwell. In your experience, do crew members also 
usually have information about the forest floor and recent 
burns? I think in this case there had not been a fire there in 
200 years. So, we had a lot of fuel, very, very dry conditions, 
and a high elevation, which made it hard to get to.
    Mr. Gleason. They were probably exposed to that for at 
least 8 hours during that 32-hour training, 8 hours of fire 
behavior. But again, fire behavior is complex. A wildland fire 
is complex, and you not only need to pay attention to the 
fuels, but the topography and the weather. I reflect back in 
1964 when I first went to fire school, and this is after living 
in southern California and watching the mountains burn. Still 
the amount of information that you are hit with there, I do not 
think it is right to hold a first-year crew member accountable.
    Senator Cantwell. And just to be clear, I am not suggesting 
that. I guess what I am trying to suggest is that we may now 
know the details of the situation, and maybe the supervisor or 
the management team did not know at the time. But if you knew 
that this had been one of the worst droughts on record in the 
State, that there were some very dry conditions, and if you 
knew that that particular forest area had not had a fire in 200 
years, so there was lots of fuel on the ground, and you knew 
that it was a steep area, would you--on a Richter scale of 1 to 
10--already say this is a dangerous climate? Now, the fire 
itself may be relatively contained at that point in time, but 
you would think that the conditions that existed would be 
something that would worry most experienced firefighters.
    Mr. Gleason. Yes, and to go up that canyon to get up slope 
from that fire while the fire was in the bottom of the canyon, 
that would be a heads-up also. You would want to stay at the 
bottom end of that just because you knew from experience that 
the winds would start blowing up canyon and accelerate the fire 
spread. So, to go to the front of a fire is definitely a watch-
out situation.
    Senator Cantwell. So, you are saying, though, that the LCES 
standards focus more on those escape routes in an up-front way.
    Mr. Gleason. Right. I am always leery of simplification, 
and that is what LCES does is simplifies. To restate myself, 
the wildland fire environment is super complex. I am not 
advocating that LCES in itself would have prevented those 
accidents.
    But I get a little bit concerned, and after reading 
Managing the Unexpected by Karl Weick here, I get a little bit 
concerned that we are too focused on the orders and the rules 
and we are not going through a formalized risk management 
procedure, risk assessment procedure like the military. And I 
am wondering if those people would have got on site and said, 
okay, everybody take 5 minutes, just take a timeout, step back 
and to take a look at the big picture, think about how dry the 
fuels are, where they are in the canyon, that the outcome would 
have been different.
    This is why I personally think that it is bigger than just 
the Forest Service. It is all wildland fire management agencies 
that are fighting fire. They have to come up with a set of 
common values such as it is okay to speak out if you are 
concerned about being in an area. It is okay to defer to 
somebody who has more expertise. It is okay not to engage. If 
those values were set--right now, they are not and there is not 
a wildland fire community because you go to one part of the 
country, one agency, maybe a local agency or a State agency, is 
fighting fire entirely different than another part of the 
country.
    So, it is bigger than the Forest Service, and it relies on 
a common understanding of what the values are and then to base 
a risk management approach off of those values and not to come 
up with LCES or fire orders or 18 situations or downhill 
fireline construction guidelines, such as occurred in 1966 
after 12 firefighters lost their lives behind Los Angeles. That 
is what concerns me is that we are putting band aids on top of 
something that is a lot deeper issue.
    Senator Cantwell. And so, what do you think training 
programs should look like for firefighters?
    Mr. Gleason. Continual, number one.
    Senator Cantwell. Do you mean continual as opposed to just 
on-the-job exposure?
    Mr. Gleason. Right, right.
    And the best way to learn how to make a decision is to be 
with somebody who is experienced in making decisions, watch 
what cues they are picking up from the environment, and how 
they are processing this information before they decide to 
engage or disengage, and not to go to a course or simply to 
follow one task, but to really follow the footsteps of an 
experienced decision maker in a heavy duty fire fight.
    Senator Cantwell. Mr. Schaenman, you were a very 
responsible, key person in the TriData study. Do you think the 
recommendations were implemented?
    Mr. Gleason. I know that a lot of them have been 
implemented and not all have been implemented. We made over 200 
recommendations and it was an awful lot to do in one shot. It 
takes years to implement some of these things. I think we can 
go much further than we have. I know that there have been 
changes in the training.
    But a lot of things take more resources than have been put 
into this. We spend a lot more resources preparing the 
military, preparing airline pilots for safety than we do 
firefighters, both urban and wildland firefighters. We are 
willing to spend a lot more money on equipment for a military 
personnel than a firefighter personnel. We spend a lot more 
money to get situational awareness. There are virtual reality 
simulators, for example, that are commonly used in the military 
now that are hardly used--I do not know if they are used at all 
in wildland firefighting. They are starting to be used in 
urban. There are lots of simulations you can run people through 
to improve their decision making experience.
    On the mentoring issue that was mentioned, Gary Klein, who 
was a member of our team and was mentioned by Paul Gleason, has 
done a lot of research in how do you teach people to mentor. 
And you can teach people to mentor and bring up the experience 
very quickly. The Marines are doing this at the squad level. 
There are drones that can be used to monitor where fires are 
and help situation awareness. There are better communication 
systems. There are lots of things that can be done.
    But the experience is one of the biggest. You can learn all 
the rules in the world, and if you do not have the experience 
level, making that real-time decision at the crew, at the 
division, and higher up the line, it does not happen as well as 
when you do have it. We have to stop the experienced decision 
makers from leaving the wildland firefighting. We are not 
giving them enough incentives to stay. They have a lot of 
disincentives to stay actually.
    Senator Cantwell. I want to come back to that question.
    Mr. Schaenman. So, we have to save the experienced people 
and we have to do better training of the people who do not have 
the experience to make up for the lack of experience. There are 
a lot of things that can be done. There are not resources to do 
everything all at once at the same time.
    Senator Cantwell. Not to put the Forest Service on the spot 
when they are not up here--although Mr. Williams is still at 
the table--but I did not hear lack of resources in any of the 
testimony from the Forest Service. I heard other issues, about 
policies that are in place that we have to make sure get 
implemented, but I did not hear any suggestion that the Forest 
Service lacks resources.
    Now, my sense is that there is some level of agreement on 
that there has to be more training, but from what Mr. Gleason 
is describing and what was described earlier, it sounds like 
two different problems. In particular, you mention the culture 
of--I think you called it--control communication response or 
something similar to that.
    Mr. Schaenman. Closing the dialogue, closing the 
communication loop.
    Senator Cantwell. Yes. Closing the communication loop seems 
to be a key issue in this particular investigation, with 
several people saying that a command was given and several 
other people saying they never heard the command.
    Mr. Schaenman. That is not a money issue. That one is 
simply changing behavior, changing a culture, and say I give 
you an instruction, it is my responsibility to make sure you 
understood the instruction. It is your responsibility, if you 
did not understand it, to ask the question.
    Senator Cantwell. Was that a recommendation in the----
    Mr. Schaenman. Yes. That was one of our key 
recommendations.
    Senator Cantwell. So, do you have any knowledge that the 
Forest Service has implemented it?
    Mr. Schaenman. I think some of that is being practiced in 
some of the training, but I do not know for sure the extent of 
that.
    Senator Cantwell. Mr. Williams, did you want to comment?
    Mr. Williams. One of the 10 standard orders is to give 
clear instructions and to make sure they are understood.
    My heart is awful heavy listening to Mr. Weaver and him 
relating this experience his family has gone through. I cannot 
help but think of my own son and my family.
    This is a high risk/high consequence business. Rules have 
got to govern our activities. Whether it is 10 standard orders 
or 4 simple LCES, something has got to govern these activities. 
I would go back to an earlier comment when we have got to look 
at are the policies adequate, are the procedures in place, or 
is this a performance issue, and I keep coming back to the fact 
that in my mind, we have got a performance issue here and that 
quickly falls to the accountability business.
    There has been much discussion about the culture in 
wildland firefighting. It is a can-do outfit. In this 
environment, it has got to be. But in the absence of good crew 
leadership, in the absence of supervisory controls, in the 
absence of adequate management oversight, there are very thin 
margins that separate can-do from make-do and make-do from 
tragedy. The role of management and supervision and crew 
leadership is to do the job right. There are places all over 
this country where that is being routinely done. That did not 
happen here.
    Senator Cantwell. Well, given that, Mr. Williams, I would 
think that the normal conclusion then would have been to take 
disciplinary action against those individuals or suspend them 
and not have them working on future fires.
    Mr. Williams. I think you heard a little earlier that an 
administrative review is underway. We have brought in an 
outside----
    Senator Cantwell. But these individuals are continuing to 
work, are they not?
    Mr. Williams. They are not working on firelines.
    Senator Cantwell. Have any of them received promotions?
    Mr. Williams. Not that I am aware of, but I do not know 
that.
    I would tell you, though, that in the past we have 
disbanded type I teams. We have pulled red cards. The agency is 
not averse to taking action when it is warranted.
    Senator Cantwell. That would be something that would be 
helpful to provide to the committee--a list of disciplinary 
action that had been taken against personnel in past incidents.
    Mr. Williams. Within the confines of the Privacy Act, we 
will do everything we can, of course.
    Senator Cantwell. Numbers are fine; not names, but numbers 
in particular incidents.
    Which brings me back to Mr. Schaenman. You mentioned that 
one important thing to do in reviewing safety standards, once 
they are implemented, is to have something like a data system 
to see how you are performing. It does not seem like we have 
that information. At least I did not get that from the Forest 
Service earlier. How hard is that to put together, given that 
you could have oversight of how a crew is working and see 
whether command closure loops were being implemented, see 
whether the various processes were actually being done?
    Mr. Schaenman. The most basic thing is getting better data 
on the actual injuries that do occur and also on near misses. 
The Forest Service is in the process of upgrading its injury 
reporting system, which I just learned at a conference a week 
ago, and is very close to having a much better system than it 
ever had before. It has tested it in one region and they are 
considering expanding it nationally as a basis. I think there 
has been a lot of progress made in that area, which is what I 
have been concerned about. I headed the National Fire Data 
Center. I am sort of a data person, and I think there is hope 
for much better data on that.
    The rest of the performance measurement, though, is very 
complicated to measure everybody all the time on everything. 
You do have to look at the near misses, the violations that do 
not lead to a fatality or an injury, but could have. And that 
is something that has happened in air safety where pilots are 
responsible for reporting near misses and do, and things are 
headed off before they hurt people that way.
    There has been a lot of discussion of, well, how do you get 
people to report near misses. It is a burdensome thing, and the 
firefighters are sort of a special breed. They do not like 
paperwork. They do not like reporting things like that.
    But you have to change the culture of lots little things. 
It takes years to change a culture. It requires lots and lots 
of little actions. Management, middle management, people at the 
bottom all have to agree on the change.
    Senator Cantwell. And how does Congress then make sure that 
the Forest Service makes that cultural change and implements 
those things?
    Mr. Schaenman. I think you are heading in the right 
direction asking for a report card every so often about what 
has been changed and also what is stopping the change.
    Senator Cantwell. I would say, with Mr. Weaver here, I do 
not think we are moving fast enough, and that is the issue. We 
are not moving fast enough to make that happen. As Senator 
Wyden said, we do not want to back here in a year at another 
hearing with similar incidents driving us to pay attention to 
something that, if it is a long process or a resource issue, we 
should address.
    I want to ask one last question, but I wanted to also give 
you a chance to address this human resource issue regarding the 
management team. I am not sure if you are being direct about 
the Forest Service's management practices as they relate to 
firefighter age or length of service, but you are clearly 
stating that experience is important and that somehow we do not 
have the infrastructure to keep those senior individuals. Is 
that right?
    Mr. Schaenman. Yes, and it is not just a Forest Service 
issue. It is across all five wildland agencies. We have been 
talking here mostly Forest Service, but we found the problem 
across all five agencies that have wildland firefighters. And 
State level agencies have told me it is very similar in their 
situation also. So, yes, that is a big problem of retaining the 
experienced leaders in the fire world. They do not have the 
incentive.
    Senator Cantwell. So, what do we do about that?
    Mr. Schaenman. Well, we address a lot of things. One is to 
have a strategic personnel plan basically to track how many 
people you have with what level experience at different levels 
and to try to make sure that you have got people in the 
pipeline getting the experience to move up to the next level.
    You also have to have the incentives to keep the people 
with the experience there on the job. There is actually some 
salary disincentives for people to give up their normal office 
job and be part of the fire militia and only work part-time of 
the year. So, there is a big personnel motivation issue that 
needs to be solved. Then we had some specific recommendations 
in our report on what needs to be done.
    Senator Cantwell. Well, this panel has been very 
informative, and I want to wrap it up and give you a chance, if 
any of you want to make final comments on this. But I guess I 
am left with very good data, Mr. Schaenman, from you and Mr. 
Gleason about the realities of what could be great firefighting 
management training efforts and safety procedures. Yet, I 
cannot guarantee to Mr. Weaver that that is going to be 
implemented. So, if you could in final comments tell me your 
thoughts on how we bring about accountability--either by giving 
OSHA broader authority or bringing in an outside inspector. How 
we can make sure that that accountability is really there from 
a congressional oversight perspective.I21Mr. Schaenman, Mr. 
Gleason, Mr. Weaver. If anybody on the panel wants to make 
final comments.
    Mr. Schaenman. I do not think there is enough resources 
going into the safety area or the training area. I think that 
you can make more rapid change by asking people what is 
stopping the change, whether it is personnel rules. I mean, 
there are all kinds of privacy rules, there are all kinds of 
personnel rules that stop you from just doing preemptive things 
of taking somebody off the line as you can in sports. I use a 
sports analogy. You can sit somebody down for a game. You can 
sit somebody down for a season, and you do not have all kinds 
of labor rules to deal with. It is not that easy to do with a 
Federal employee. There are all kinds of constraints on that. 
So, you have got to see what is stopping you from having the 
immediate accountability. It is not orneriness. It is people 
trying to find the best way to do this. But I think you all can 
ask the question, is there a law stopping this? Is it will? Is 
it money? What is stopping us from moving faster?
    Senator Cantwell. Mr. Gleason.
    Mr. Gleason. Yes. I am still convinced that with the finest 
training, that we still need to have some sort of mentoring 
process in place where people are making decisions alongside of 
somebody else who is experienced in making that decision, all 
the way from the crew boss, incident commander, to the fire 
management officer, and on up the line. That is needed. How it 
fits together, how it comes together I do not know because that 
is basically doubling the workforce. I really feel that no 
matter what quality of training there is that it is entirely 
different when you are in the real environment that you 
actually engage with those procedures and processes.
    Senator Cantwell. Mr. Weaver, any final comments?
    Mr. Weaver. Yes. I claim still my political naivete. This 
problem is always painted in various shades of gray, and I 
understand, yes, that we need training and I could not agree 
more. We need to figure out how to keep qualified people in the 
job.
    But it does not matter how good your training is and it 
does not matter how qualified your people are, if you do not 
adhere to the safety rules, if you do not have an action/
consequence equation, you are going to have deaths if you do 
not have people following instructions. I do not care how 
intelligent they are. I do not care how well trained they are. 
I do not care how well funded you are. If you do not have the 
guy on the fireline that is sending the crew behind that fire 
to stop, take a time out, 5 minutes and think am I following 
the rules, you are going to have deaths. At the end of the day, 
in my mind--and I am sure I am guilty of simplifying this and I 
worry about oversimplification. But at the end of the day, 
without accountability, nothing that we are going to try to do 
here, in terms of training, in terms of better personnel, will 
ever have any impact.
    Senator Cantwell. Well, thank you, Mr. Weaver, and I thank 
the panelists for being here. As with the other panelists, if 
there are questions from members, we would request that you 
please respond to those. They will likely be in writing. We 
appreciate your help on that.
    This is a very important issue not just for those Western 
States that have wildland fires but for the entire country. We 
need to do a better job of ensuring that those who are employed 
to fight fires are employed in a safe environment. That is 
something I think this committee is going to spend a 
significant amount of time on.
    So, again, I thank everyone who testified today.
    This Subcommittee on Public Lands and Forests is adjourned.
    [Whereupon, at 4:47 p.m., the hearing was adjourned.]

    [Subsequent to the hearing, the following was received for 
the record:]
                                      Yakima, WA, October 18, 2001.
    Ladies and Gentlemen:

    I feel compelled to write you this letter regarding the death of my 
daughter Jessica L. Johnson--a death that was preventable, a death that 
has blackened my world. Jessica was my sunshine and I loved her with 
all of my heart. I pray that my daughters' young life was not taken in 
vain. The only things that I am left with are the memories of Jessica's 
short life and a pain and sadness that is indescribable unless you 
yourselves have experienced such a tragedy. Jessica was such a caring 
and giving person; so willing to give of herself to others she was very 
sensitive and never wanted to hurt anyone. As a young child she became 
friends with a little girl in first grade, a friend that was different 
from most children their age.
    Her friend suffered from Cerebral Palsy, physically she was 
different from all of the other children and most children made fun of 
her at school. Jessica would protect her and help her when others would 
turn away. Jessica was a friend that she would have for life and when 
she came to my home after Jessica's death she was so devastated that 
she could hardly speak. Her sweet friend was no more. As Jessica grew 
up over the years she became very outgoing and charismatic. Everyone 
liked her and our phone would ring off of the hook from the time she 
came home from school until bedtime.
    She grew into a young woman and was attending Central Washington 
University in Ellensburg, Washington. Jessica chose Central so she 
would be close to home. She never wanted to be an only child, so after 
15 years of waiting and wanting, a little sister or brother God blessed 
our family with Ashley Jessica's little sister that is now 5-year-olds. 
Jessica would often arrive at home mid-week from college just to be 
with her little sister because she missed her and wanted to be near her 
family and friends. I will never forget as long as I'm alive Jessie 
driving away in her silver Nissan pickup with little Ashley standing on 
the curb yelling at the top of her little lungs, so to be heard over 
the roar of the truck for Jessica to be careful and to come home soon! 
She did this every time Jessie came home, no matter what the weather.
    Sometimes Jessie would come home during the week to help the local 
fire department teach a fire safety class to the children attending 
grade school. She always had a smile on her face and always had 
something positive to say to others. She would often surprise us with 
random acts of kindness it her special little way. Jessica was so full 
of life and had made many plans to spend time with her family in the 
days and years to come. She and I were walking one evening in June 
before she started working for the Forest Service. We were talking 
about her soon approaching 20th birthday. We talked about taking a trip 
on her 21st birthday to a Spa. I told her that I would pay for the trip 
but that she had to do the research and pick the place she would be on 
her 21st birthday, That dream will never come true for her just, as she 
never got to have her 20th birthday. She was killed just 15 days before 
she turned 20 years old. Our family had to celebrate her birthday 
without her.
    During this same evening walk Jessica told me that she was reading 
a book called ``Fire on the Mountain''. She told me that is was a story 
about 14 fire fighters that were killed in 1994. She and I then had a 
chance to talk about being entrapped by a wildfire and Jessica assured 
me that the Forest Service would never let that happened, that she was 
trained in fire shelter deployment and that she could deploy her 
shelter in 20-30 seconds and that I didn't need to worry because, 
``Safety First Mom, Safety First!'' I was so afraid for her and she was 
not afraid because she trusted and believed in what she had been taught 
over the years in the wildland fire training classes she attended.
    She also trusted and believed in the Forest Service and the 
propaganda that they taught her. They even have water bottles with 
Safety First printed on the sides! Ashley misses her sister so much and 
it is hard for me to answer the difficult questions she asks me--like 
when is Jessie coming home? Then she says in the same breath, Jessie is 
never coming home, she's in heaven and she will never pick me up after 
school like she promised me, will she mom, because Jessie is dead. She 
will yell out to God just all of the sudden, ``God you give me back my 
sister, give me back Jessica!'' How do you comfort a child that has 
lost her world, someone she adored, and someone that she thought was 
the greatest? Maybe the Forest Service would like to explain these 
things to my little Ashley. Maybe they would like to tell her someday 
what really happened to her sister, and maybe they would like to 
explain the horrific way Jessica died. Running for her life up a rocky 
slope that is very difficult to even walk on, being licked by flames, 
being burnt, screaming, suffering and crying in pain, praying to God in 
an aluminum shelter, praying for her life all of the while being burnt, 
aware of everything that was happening until her last breath was taken.
    Maybe they would like to explain to Ashley why her Mommy cries 
every day and can hardly concentrate on the simplest of tasks on some 
days. Maybe they would like to feel the pain and sadness that I am left 
with. Maybe they would like to have their futures taken away from them. 
I will never see my daughter, the only child from my first marriage, 
graduate from college and become a Registered Dietician like she 
dreamed and work so hard to accomplish. I will never see her get 
married, I will never be a grandmother to her children, I will never 
get to celebrate another birthday with her. She will not be with our 
family during the holidays. She is forever gone. I have lost my 
connection to the future, someone that I cared very deeply about, loved 
with all of my heart and raised to be a good person, a child that for a 
period in my life I raised as a single parent, a good and loving person 
that would not harm anyone. Her family and friends miss her and some 
days it is just hard to go on. We often think about her, we often 
wonder why?
    Why can the U.S. Forest Service kill their employees, our countries 
people, and there is no recourse no matter what happened. Our great 
country has a justice system that persecutes people in our country for 
their wrong doings. Why is there employer immunity? This basically 
gives the Federal Government the right to do whatever they want to the 
tax paying citizens; their employees and they know darn well that they 
are untouchable. But we the people don't know these facts unless we are 
faced with them, just as all four of the victims' families now know. 
The Forest Service has slapped us in the face for the last time; the 
citizens of this Nation will demand that they face justice and that 
they are held accountable for their actions, just as we demand that the 
Terrorist are held accountable for their deadly deeds to our people. 
This is no different. They can tell us every lie in the book and even 
control our funerals not allowing us to view our own children's bodies. 
. . . only because my beautiful daughter who once weighed 150 pounds 
came home in a casket, in a body bag only weighing 20 pounds, her 
remains were basically her chest cavity, the rest of her was burned to 
ashes and those ashes remain on the rock scree in the Chewuch River 
Canyon.
    It is my hope that there will be changes made within the U.S. 
Forest Service, changes that will provide improvement in the future for 
wildland Fire Fighters. Although this tragedy is new to my family and 
me, this is not the first time that wildland Fire Fighters have 
heroically given their lives. The have been over 400 deaths in wildland 
fires from the Mann Gulch Fire, the South Canyon Fire and the latest 
tragedy, the Thirtymile Fire. The number of the victims may not be as 
large as those who heroically gave their lives in a rescue effort at 
the World Trade Center on September 11, 2001, but the significance is 
just as monumental.
    Much like the story that is told of the 14 who died in Colorado 
State in 1994, our daughter and the 3 others that also died were blamed 
for their own deaths. The Forest Service then later retracted the 
statements, stating that the four who died may not have heard the order 
to come down off of the rocks. The truth is known that the statement 
was never made for them to come down off of the rocks. I personally 
have talked with some of the Fire Fighters that survived the Thirtymile 
Fire and their statements to me were that those orders never came to 
those who lost their lives.
    Although I do give the Forest Service some credit for changing the 
report and bringing it somewhat closer to the truth, once again they 
made a baby step toward the truth without every acknowledging exactly 
what happened and during this whole thing the families are being 
tortured. Unlike the Storm King Fire, there are survivors of this fire. 
There is a reason for this, the reason being that the U.S. Forest 
Service needs to be held accountable for their actions, or lack of 
actions. There are witnesses to what happened and the truth will be 
known and it will be made right. Fire Fighters unselfishly give their 
lives everyday, just as these four did on July 10, 2001.
    My daughter had been involved in fire fighting since the end of her 
junior year in high school. For three and a half years she was a 
volunteer Fire Fighter for West Valley Fire Department here in Yakima 
County. She gave her time and energy as a teenager to help those in the 
community who were in need. She would come home on weekends from 
college to take call for the local fire department; there are few 
teenagers that care that much about others, who are willing to 
sacrifice their time on the weekends to help others. My daughter was a 
jewel that can never be replaced, as were all of the other victims. 
This was the second season of fighting wildland fire for my daughter. 
She worked last year for the Department of Natural Resources on a 20-
person crew.
    She loved working with others and made many special friends as the 
crew traveled to different areas to fight fire. She decided this past 
winter to apply with the Forest Service. She told me that she felt this 
was a better agency. The Forest Services in my daughters' eyes were the 
cream of the crop and that's where she wanted to be, with the best! She 
did not know, nor did we, that there are many flaws within the U.S. 
Forest Service. Flaws that endanger peoples lives constantly while they 
are working for them, flaws that actually kill innocent people, people 
at the prime of their young lives, educated people who are trying to be 
productive in society. It is time for the U.S. Forest Service to be 
held accountable. It is time to write a new chapter in wildland fire 
fighting, not a chapter of sadness and tragedy, but one filled with 
guidelines that are useful that can be followed by all when fighting a 
wildland fire.
    How many times does history need to repeat itself. How many second 
chances does one agency need to get it right? Those are the questions 
that I have along with the huge question of why they have immunity and 
why they are not held accountable for their actions. Why are they 
allowed to repeatedly kill their employee's without facing the justice 
system? Why can they do their own biased investigation and have that 
reported to the public as fact, when it is full of holes and lies. Why 
are they allowed to alter the statements of the witness and persecute 
those who speak out against them, when all that is being said is the 
truth?
    Why were witnesses not allowed to tell reporters that the four that 
died were screaming in pain as they were being burnt to death, because 
the Forest Service had not told the families of the victims how they 
actually died. How can they have such control? Is this not America and 
don't we have freedom of speech? Is that not still written in the First 
Amendment? Why do they employee incompetent people and not supervise or 
assure their competence, yet put them in charge of human lives, in a 
situation that was clearly a mistake from the very beginning. Why are 
they allowed to break their own rules, rules they make, rules they 
train their employees to follow? Why do they promote people and fast 
track others into positions that they are not qualified to do? Why did 
they let the Incident Commander and the Incident Commander trainee 
continue to work and be in charge of supervising other Fire Fighters 
after four people died at their hands?
    Why weren't these people put on administrative leave until the 
investigation was complete. Or better yet, why aren't they fired? The 
Lake Leavenworth Fire Fighters nearly revolted and walked out on the 
Forest Service for these actions. Why are they allowed to blame others 
and lie? I believe that history has repeated itself, and enough is 
enough and the time has come for those who are responsible to be held 
accountable.
    It is with this that my family is hoping changes will be made and 
that the U.S. Forest Service will be held accountable. I am asking all 
of you to make this right. I believe in the U.S. Government and I need 
to have a restored faith in the U.S. Forest Service. We need to hold 
them accountable for their actions and lack of intelligence. They have 
made and broken promises to us and to the South Canyon Fire Victims 
Families. They should be held to those promises and our tax dollars 
must be used to make the necessary changes. The Forest Service must be 
put under the microscope. They must be monitored diligently to assure 
that they comply with the changes and they are held accountable if they 
do not! There should never be a broken promise by the U.S. Government 
to its people. Let this be the starting point for a new responsibility. 
The U.S. Forest Service is accountable for their actions. Don't leave a 
legacy of broken promises and repeated history. Make this right for the 
people of our Nation and RESTORE ALL OF OUR FAITH!
    This task is huge, there is a culture among the ``good old boys'' 
that needs to be changed. It is not allowable to cover-up the truth. We 
the people demand the truth--after all, it is our tax dollars that pay 
all of your wages. Wildland fires can be fought safely, but Fire 
Fighters must be given all of the information, tools and resources (not 
Pulaski's that break and fall apart, not hoses that burst when there 
being used). Fire Fighters must demand that they be told everything 
about the area they are fighting a fire in, all of the cards need to be 
face up on the table, they need to know the weather, the fuels the 
geographical location of the area they are working in etc., they must 
all have maps, hand held computers, radios, etc., whatever it takes to 
fight the fire safely. Then if there is any question on whether the 
individual is willing to risk his our her own life knowing all of the 
facts, then that is a choice that they make. Unfortunately, the Fire 
Fighters on the Thirtymile Fire did not have all of the facts about the 
weather, fuels, the dead end road, yet they were sent to assist engines 
that made a decision to go up a dead-end road without permission.
    The only escape route was the road and I believe that the Incident 
Commander and trainee never briefed the Fire Fighters on the change in 
strategy and the change in escape routes. After all, isn't it mandatory 
for them to have two escape routes? When those engines got into trouble 
and needed help whom did they call, the Fire Fighters? The Fire 
Fighters were sent to assist those engines after the Incident 
Commanders had given up the fire. The Incident Commanders knew the Fire 
Fighters would be in front of the fire and the beast had long won the 
battle. Yet, they sent 14 people up there!
    The Fire Fighters are the ones that got trapped and died, somehow 
miraculously the people on the engines escaped with their lives, as did 
the Incident Commander trainee who dropped off the 14 Fire Fighters and 
left an Incident Commander with a vehicle that would only carry 11 
people, when it took the Incident Commander trainee two separate loads 
to drop the Fire Fighters off. These are the cold hard facts. Please 
help us bring the U.S. Forest Service to justice. After all, the Fire 
Fighter was doing exactly what he or she had been taught--FIGHT FIRE 
AGGRESSIVELY! How crazy is that?
    They are taught to have a can-do attitude then they are punished, 
persecuted and even blamed for their own deaths for doing so! 
Unfortunately, sometimes that punishment is death! The number one 
Standard Fire Order is: Fight Fire Aggressively but provide for safety 
first. Is this not an oxymoron?
    Nothing that is done will ever bring back the lives that have been 
lost over the years, but it may prevent the Forest Service from having 
their calloused attitude, acting as though they are God, when one of 
their own dies. Structural Fire Fighters don't have this cold calloused 
attitude; they can and are held accountable for their own. When one of 
them dies in the line of duty they loose their brother or sister, 
members of their own family and they make it right or as close to right 
as one can get when someone dies.
    Please make this right for the Fire Fighters.
            Respectfully,
                                                         Jody Gray.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

 Responses of Dale Bosworth, Chief, Forest Service, to Questions From 
                             Senator Wyden
    Question 1. As we have discussed, I am concerned that the 
recommendations contained in the Forest Service's Accident Prevention 
Plan are strikingly similar to those made at the conclusion of the Tri-
Data study, which was done after 14 federal firefighters lost their 
lives in Colorado's 1994 Storm King fire. In addition, the Occupational 
Safety and Health Administration performed its own investigation of 
Storm King, and issued additional recommendations. You have said that 
the Forest Service takes these recommendations very seriously, but 
indicated that you are unsure of how many of these measures have been 
implemented since Storm King. Please provide the Committee with a 
comprehensive status report on the implementation of these enhanced 
safety measures and programs. For those that have not yet been 
implemented, please provide an explanation as to why and a timeline for 
their completion. Please also submit a list of the measures the Forest 
Service intends to have in place by the beginning of the 2002 fire 
season.
    Answer. On an annual basis, the Forest Service fights about 10,000 
wildfires with about 7,000 firefighters. The agency also assists other 
wildland fire agencies in suppression actions under their 
jurisdictions. Annually, these fires burn over 800,000 acres of 
National Forest. Over 90 percent of all wildfires are suppressed upon 
the initial action. Additionally, firefighters carry out activities 
over 1.3 million acres for hazardous fuels reduction each year. This 
work is accomplished with few accidents or injuries.
    There were 183 action items in the Interagency Management Review 
Team (IMRT) report from the South Canyon tragedy. One hundred seventy 
four have been completed. The management of transition fires was an 
issue at both South Canyon and Thirtymile. To provide additional 
guidance on the management of transition fires, we are developing a 
transition fire guidebook for all Incident Commanders that will be 
available before the 2002 fire season.
    The Management Review Board for the Thirtymile fire identified 31 
action items. Some of these are similar to the South Canyon action 
items. The 31 items in the Thirtymile Mile Accident Prevention plan 
have been assigned to an individual or group for implementation. It is 
our objective to institute as many of these items as possible into our 
regular operational procedures prior to the 2002 fire season.
    Although policy and procedural issues surfaced during the course of 
the investigation, many of the fundamental issues centered on 
performance. Specifically, adherence to established safe practices 
procedures. We are working on strengthening performance expectations at 
management, supervisory and crew leadership levels of the organization.
    Question 2. As part of the National Fire Plan, Congress passed 
Appropriations of $1.1 billion in 2001, and the President's budget 
called for $1.3 billion for Fiscal Year 2002. It is not clear, however, 
that any of the additional funds have been spent on enhanced training 
or safety. Please provide the Committee with a comprehensive breakdown 
of the Forest Service's safety and training budgets from Fiscal Year 
1995 (the year of the Storm King fire) through the present. In 
addition, please provide information regarding the percentage of the 
Forest Service's overall firefighting budget devoted to safety and 
training during these years.
    Answer. Since 1995, the Forest Service has allocated approximately 
$23 million dollars to the development and delivery of fire and safety 
training. This allocation includes funding for the establishment of a 
National Academy for wildland fire suppression in cooperation with the 
Department of Labor to help develop new leadership.
    Funds for training are included in each Region and unit budget and 
nationally we do not track these expenditures. Each Region's 
responsibility is to conduct regional and local training to ensure 
firefighters are fit, qualified, and prepared to control and suppress 
fire. The National figure does not reflect the total amount of money 
spent by each unit to prepare their firefighters, that number is in the 
tens of millions each year. A conservative estimate for the past 7 
years would be $100,000,000 of Regional preparedness budgets. This 
represents an estimated annual percentage of fire preparedness funds 
for the agency ranging from 5 to 10 percent.

           DIRECT NATIONAL TRAINING EXPENDITURES FOR 1995-2001
------------------------------------------------------------------------
          Year             NWCG      NARTC    SEPFA     NJAC      Total
------------------------------------------------------------------------
1995                      850,000   930,000                     1,780,00
                                                                       0
1996                      900,000   950,000                     1,850,00
                                                                       0
1997                      989,500  1,049,00  500,000            2,538,50
                                          0                            0
1998                      989,500  1,000,00  500,000            2,489,50
                                          0                            0
1999                      979,300  1,000,00  500,000            2,479,30
                                          0                            0
2000                     1,000,00  1,142,00  500,000  1,400,00  4,042,00
                                0         0                  0         0
2001                     1,000,00  1,443,00  500,000  5,200,00  8,143,00
                                0         0                  0         0
------------------------------------------------------------------------
  Total                  6,708,30  7,514,00  2,500,0  6,600,00  23,322,3
                                0         0       00         0        00
------------------------------------------------------------------------
NWCG--National Wildland Fire Coordination Group to develop wildland fire
  and safety training.
NARTC--National Advanced Resource Technology Center to develop and
  deliver Nationally level fire management and safety training.
SEPFA--Southeast Prescribed Fire Academy to delivery prescribed fire and
  safety training.
NJAC--National Junior Apprenticeship Academy to deliver basic and
  advanced firefighter and safety training in an academic setting to
  develop fire management and leadership.

    Question 3. The issue of training also appears to be key in 
enhancing firefighter safety, and I believe this is particularly 
crucial given the large numbers of new firefighters hired under the 
National Fire Plan. I understand that last year's appropriations were 
sufficient to allow State and Federal agencies to hire more 8,000 new 
firefighters this year, creating 3,000 new permanent positions that 
include employee benefits. To date, some 5,300 additional firefighters 
have been hired. You have suggested that firefighter safety violations 
and subsequent fatalities stem not from a failure of Forest Service 
policies, but from performance in the field. Do you believe this 
performance failure is caused by a failure in training? If not, to what 
other factors could performance failure be attributed?
    Answer. Any time there is performance failure training and 
supervision must come under scrutiny. There is reason to believe that 
both training and supervision were lacking at Thirtymile. The training 
shortcoming is primarily in leadership and situational awareness. These 
will be addressed in our Leadership Curriculum that is in the 
implementation stage and our annual refresher training. This annual 
refresher training will include lessons learned from Thirtymile, 
Incident Commander expectations and transition fire management. 
Supervision and management oversight will be strengthened through 
training and the Fire Management Plan development process.
    Question 4. We have already discussed the fact that the existing 32 
hours of training for first year Forest Service firefighters falls far 
short of that required for volunteer municipal firefighters. Please 
describe the existing training regimen and the specific safety 
instruction first-year firefighters receive. Do you believe that 
extending the training period would enhance safety performance? Why or 
why not?
    Answer. The National Wildfire Coordinating Group, comprised of the 
Forest Service, the National Park Service, the Bureau of Land 
Management, the Fish and Wildlife Service, the Bureau of Indian Affairs 
and the National Association of State Foresters, takes the position 
that 32 hours of basic introductory fire training is sufficient for 
first year wildland firefighters. Municipal departments must deal with 
hazardous materials, interior fire suppression, emergency medical 
responses and a multiplicity of unpredictable daily responses that 
wildland firefighters rarely see.
    The Forest Service has been fortunate to add 5,400 new firefighters 
to the federal workforce this past year. These firefighters were not 
placed on assignment until they were qualified and unless there was 
adequate supervision. Before a firefighter is deemed qualified, they 
must pass a work capacity test and receive basic training and 
experience. Qualified supervision and leadership are always assigned to 
help the firefighters accomplish their work safely.
    The Forest Service recognizes the value of having new employees 
mentored by more experienced employees. The agency has initiated a new 
employee orientation program that encourages supervisors to either 
mentor or select mentors to answer questions and introduce techniques. 
More important, these people demonstrate safe fire practices. The only 
barrier to the continued development of mentoring within the agency is 
time needed to transfer experience from the mentor to the employee. 
With the large number of new people, this becomes a much bigger 
challenge. There is simply no way to transfer every experience within a 
week. Mentoring and experience transfer is a long-term process the 
agency is dedicated to implementing.
    Question 5. The Forest Service and other experts have commented 
that effective firefighting also requires on-the-job training, given 
the multiplicity of variables and complexity of the environment our 
firefighters face. In order for our novice firefighters to acquire 
needed experience under the safest possible conditions, some have 
suggested that a mentorship program should be put in place. What role 
does mentorship currently play in firefighter training? Has the Forest 
Service considered implementing or expanding such a program? What do 
you perceive as the barriers to doings so?
    Answer. The Forest Service recognizes the value of having new 
employees mentored by more experienced employees. Following the South 
Canyon tragedy, the Forest Service and the other members of the 
National Wildfire Coordinating Group adopted a performance based 
training system. This was in recognition that classroom training was 
not always adequate. The more effective method of training was a 
combination of classroom and on-the-job training, and experience. The 
agency has initiated a new employee orientation program that encourages 
supervisors to either mentor or select mentors to answer questions and 
introduce techniques. More important, mentors demonstrate safe fire 
practices. The only barrier to the continued development of mentoring 
within the agency is time needed to transfer experience from the mentor 
to the employee. With the large number of new people, this becomes a 
much bigger challenge. There is simply no way to transfer every 
experience within a week. Mentoring redundant is a long-term process 
the agency is dedicated to implementing.
    Question 6. Some parties have also expressed concerns about the way 
federal agencies including the Forest Service have gone about hiring 
new personnel, as funded by the National Fire Plan. With retirements 
already eroding the experience of our firefighting crews--I recall that 
earlier this spring, you testified before the Committee regarding the 
``graying of the workforce''--there is concern that shifting personnel 
among agencies in order to fill the 3,000 new permanent positions is 
breaking up veteran crews, which may have an impact on firefighter 
safety. It is important to note that the lack of crew cohesion was one 
the influencing factors cited in the Thirtymile investigative report. 
What policies are currently in place to retain our more experienced 
firefighters? Do you believe that hiring policies are having an impact 
on federal agencies' ability to retain veterans? So you believe these 
policies require reform? If so, how should they be reformed?
    Answer. Wildland firefighting is physically and mentally stressful. 
To perform safely and effectively, firefighters must maintain a high 
level of mental and physical agility and stamina. These necessary 
mental and physical capabilities decease with age. Firefighter early 
retirement was established to keep the average age of firefighters less 
than that of the general federal workforce. The intent was to maintain 
a healthy, vigorous, mentally and physically capable firefighting 
workforce. A large portion of the veteran firefighting workforce will 
become eligible for retirement or be at their mandatory retirement date 
in the near future. As a result, we expect to lose many of our veteran 
firefighters. The firefighter retirement system is working as designed.
    Large numbers of new firefighters have not been hired by federal 
wildland firefighting agencies since the late 1970s. Consequently, in 
the next several years a larger proportion of our veteran firefighter 
workforce will be retiring than has in the recent years. The best 
solution to the dilemma is to even out the hiring of firefighters over 
time so that the inflow of rookie firefighters equals the out-flow of 
retiring, veteran firefighters. To accomplish this requires predictably 
consistent funding for wildland firefighting programs over years and 
decades. The boom and bust cycle of funding and related hiring of 
firefighters is the main culprit, not the firefighter retirement 
program.
    Another symptom of the ``boom-bust'' hiring trend is an over-
reliance on temporary firefighters. Managers are reluctant to hire new 
permanent firefighters during a budget upswing because there is a 
possibility they will be forced into a reduction-in-force on the next 
budget downswing. To compensate they hiring a greater proportion of 
temporary firefighter . . . those easiest to lay-off. These temporary 
firefighters often work 10 seasons or more only to loose their job 
during the next budget down-swing. Some of these long-term temporary 
firefighters are already over 37 years old, the maximum age they can be 
hired into a permanent position covered by firefighter retirement.
    The restriction on maximum retirement age imposed by the 
firefighter retirement system is the only management tool currently in 
use to provide for a firefighting workforce that is mentally and 
physically capable of safely and effectively meeting the demands of the 
job.
    Question 7. We have already discussed the concept of a ``zero-
tolerance'' policy for violations of firefighting safety policies--one 
means of instituting a culture of accountability within the Forest 
Service. However, it is not clear from my research that your agency 
currently has any formal disciplinary policy in place. That is, in the 
wake of Storm King and the Thirtymile Fires, you have instituted 
administrative reviews of personnel, their actions, and involvement in 
the incidents. It seems tome that these reviews--done on a case-by-case 
basis--may lead to inconsistent disciplinary measures for safety 
infractions. Within the confines of the Privacy Act, please make 
certain to submit the list of safety violations and subsequent 
disciplinary actions taken against personnel that I have already 
requested. In addition, do you believe that having in place a concrete, 
comprehensive and proactive disciplinary policy would increase the 
level of accountability at all levels of the Forest Service? What are 
the barriers to putting such a policy in place? In addition, do you 
believe that fire-line safety inspectors would helpful in enforcing 
such a policy? What other specific measures are you considering to 
increase accountability of Forest Service firefighting personnel and 
management?
    Answer. The Forest Service does not maintain formal list of 
disciplinary actions taken as a result of violations on fires. Formal 
disciplinary actions are handled at the Regional level. Removal, 
suspension or down grading of an employee is based on OPM guidance and 
5 CFR 752.
    We are currently working on a process for reporting safety 
violations and safe practices. Attachment A is the first attempt at 
collecting this information.
    Each Incident Management Team has afire safety officer to oversee 
fire operations on that particular incident. These individuals have 
proven their value many times over by stopping unsafe fire operations. 
There is no real way to know the numbers of lives they have already 
saved, but we see their continued use as imperative.
    Question 8. You have also indicated that it is difficult to know 
which safety measures have been effective, because it is impossible to 
track ``how many people our actions might have saved after Storm King 
from the things that we learned.'' In addition, I understand that the 
Forest Service currently does not require reporting or investigation of 
near-miss incidents and entrapments that do not lead to casualties. I 
understand that Region 5 of the Forest Service is currently testing a 
new data system--the Automated Accident and Injury Reporting System 
(AAIRS). Will this new system track data associated with these near 
misses? If not, please describe the barriers to doing so. When will 
this system be in place for all Regions of the Forest Service?
    Answer. The AAIRS program is a pilot program that is being tested 
in California. The goal is to have a program that would track all 
accidents in order to perform trend analysis and to prevent accidents. 
Currently accidents are reported and ``charged'' in an agency specific 
manner and these agency specific databases do not always share 
information. The first test of the program, which is underway now, is 
to capture accident information when Incident Management Teams are 
involved. The second phase would be to capture this same information 
for accidents that occur during initial attack. The National Wildfire 
Coordinating Group is assisting in the evaluation of the program and 
could recommend the program for all wildland fire accidents.
    It is too early in the evaluation of the program to generate a 
timeline for possible national adoption.
    Question 9. Please comment more specifically on the steps the 
Forest Service takes to ensure the integrity of its own internal 
investigations. Does the Forest Service have a stated policy regarding 
the way it assembles it investigative teams to look into these 
incidents? Do you believe that officially injecting another voice into 
the process--such as an Inspector General--would be constructive and 
help bolster public confidence in there investigations' conclusions?
    Answer. There is policy developed on accident investigations. 
(Forest Service Manual 6730). Information on the specifics of 
assembling accident investigation teams in contained is Forest Service 
Handbook 6709.12, chapter 30. Both documents are currently under 
revision. The revisions will contain expanded information on the 
specifics of assembling accident investigation teams. In addition, more 
specific information on accident investigation teams is contained in 
the recently published Accident Investigation Guide.
    Internal accident investigations are an accepted process not only 
in Federal agencies but also in private industry. It is sound safety 
practice to investigate all accidents. Also, OSHA requires all 
accidents to be investigated and ``the extent of the investigation 
shall be reflective of the seriousness of the accident''. (29 CFR 1960, 
``Elements for Federal Employee Safety and Health Programs'', part 29)
    In accordance with 29 CFR 1960.70 and OSHA conducted a concurrent 
investigation.
    The Forest Service contracts the position of Chief Investigator on 
all Washington Office level accident investigations. This is done to 
ensure we do not compromise, in any way, our serious accident 
investigation process.
    The current process requires the team leader to be an SES employee 
of the agency. This duty is rotated and an ``on call'' roster is 
maintained. Also, a contract chief investigator is used. Upon 
completion of its investigation, the accident investigation team 
presents its findings to a board of review. This board works with the 
investigation team to ensure the report is complete and accurate. The 
board then makes recommendations on actions that are needed to prevent 
future mishaps.
    The teams are assembled by the team leader to ensure the necessary 
expertise is represented on the team and also to ensure the team can 
respond in a timely fashion. Teams that are assembled to investigate 
entrapments have fire behavior, weather, fire operations and equipment 
specialist on the team. The National Weather Service normally provides 
a meteorologist. Other wildland fire agencies may provide expertise as 
well.
    The Thirtymile incident was investigated using accident 
investigation guide developed in 2000. This guide was assembled in 
order to improve our investigative process.
    Question 10. In the case of the Thirtymile Fire, the Forest Service 
took the unusual step of reopening the investigation after the initial 
report had been issued, on September 26. Why did you decide to reopen 
the Thirtymile Fire investigation? Isn't this the first time the Forest 
Service has ever done so? Do you believe the emergence of new evidence 
after the report had already been issued speaks to an underlying flaw 
or the thoroughness of the investigative process?
    Answer. The Chief directed the Board of Review to review the 
portion of the investigation that dealt with directions or orders that 
were given following entrapment and prior to deployment. Witnesses had 
conflicting statements and there was much public discussions relating 
to what was said or not said and to what was heard or not heard. The 
Board of Review looked into this part of the report again and 
determined that there was some uncertainty as to what was said and 
heard during that crucial time.
    The reopening of the investigation did not alter that findings of 
the report nor did it affix blame to the victims.
    Question 11. How, specifically, do you believe Congress can be a 
better partner in ensuring the safety of our federal wildland 
firefighters?
    Answer. Recognize fire fighting is dangerous. Recognize we have 
made significant progress in safety despite the recent tragedies.
    Recognize there is a lot of pressure to fight every fire and a lot 
of pressure not to fire in particular places. At time the public debate 
over natural resource management comes together on the wildfire stage. 
Our dedicated wild land fire managers and fire fighters are often 
expected to process many factors quickly and always make the right 
decision a difficult task at best.
    As the federal budget comes under more pressure, some will want to 
reduce preparedness finding. The Forest Service workforce over next 
several years is going to be developing essential knowledge, skills and 
abilities. This workforce will rely on adequate funds for training 
development and staffing depth to ensure safety.
    You can also assist us by continuing involvement though your 
oversight, support and interest.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
